<html>
<title> - CARBON CYCLE RESEARCH AND AGRICULTURE'S ROLE IN REDUCING CLIMATE CHANGE</title>
<body><pre>[Senate Hearing 106-905]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-905

CARBON CYCLE RESEARCH AND AGRICULTURE'S ROLE IN REDUCING CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY
                          UNITED STATES SENATE
      SUBCOMMITTEE ON RESEARCH, NUTRITION AND GENERAL LEGISLATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

CARBON CYCLE RESEARCH AND AGRICULTURE'S ROLE IN REDUCING CLIMATE CHANGE

                               __________

                              MAY 4, 2000

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
69-533                     WASHINGTON : 2000


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAUL COVERDELL, Georgia              THOMAS A. DASCHLE, South Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
PETER G. FITZGERALD, Illinois        J. ROBERT KERREY, Nebraska
CHARLES E. GRASSLEY, Iowa            TIM JOHNSON, South Dakota
LARRY E. CRAIG, Idaho                BLANCHE L. LINCOLN, Arkansas
RICK SANTORUM, Pennsylvania

                       Keith Luse, Staff Director

                    David L. Johnson, Chief Counsel

                      Robert E. Sturm, Chief Clerk

            Mark Halverson, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing:

Thursday, May 4, 2000, Carbon Cycle Research and Agriculture's 
  Role in Reducing Climate Change................................     1

Appendix:
Thursday, May 4, 2000............................................    43
Document(s) submitted for the record:
Thursday, May 4, 2000............................................   101

                              ----------                              

                            Thursday 4, 2000
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, a U.S. Senator from Kansas, Chairman, 
  Subcommittee on Production and Price Competitiveness, of the 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Grassley, Hon. Charles E., a U.S. Senator from Iowa,.............    13
Kerrey, Hon. J. Robert, a U.S. Senator from Nebraska, Ranking 
  Member, Subcommittee on Production and Price Competitiveness, 
  of the Committee on Agriculture, Nutrition, and Forestry.......    10
Johnson, Hon. Tim, a U.S. Senator from South Dakota..............     7
                              ----------                              

                               WITNESSES
                                PANEL I

Collins, Keith, Chief Economist, U.S. Department of Agriculture, 
  Washington, DC.................................................     5
Hofmann, David J., Director, Climate Change Monitoring and 
  Diagnostics Laboratory, National Oceanic and Atmospheric 
  Administration, Boulder, Colorado..............................     3
Stuckey, Richard, Executive Vice President, Council for 
  Agriculture, Science and Technology (CAST), Ames, Iowa.........     7

                                PANEL II

Kimble, John M., Research Soil Scientist, U.S. Department of 
  Agriculture, Lincoln, Nebraska.................................    31
Rice, Charles W., Soil Microbiology Professor, Kansas State 
  University, Department of Agronomy, Manhattan, Kansas..........    29

                               PANEL III

Hass, John, Larned, Kansas.......................................    35
Richards, William, Former Chief of the Soil Conservation Service, 
  Circleville, Ohio..............................................    33
                              ----------                              

                                APPENDIX

Prepared Statements:
    Roberts, Hon. Pat............................................    44
    Collins, Keith...............................................    56
    Haas, John...................................................    95
    Hofmann, David J.............................................    46
    Kimble, John M...............................................    83
    Rice, Charles W..............................................    74
    Richards, William............................................    89
    Stuckey, Richard.............................................    71
                              ----------                              
Document(s) submitted for the record:
    Position statement (with attachment), submitted by Clark 
      Woodworth..................................................   102
    Charts (Carbon Diooxide), submitted by David J. Hofmann......   113
    Storing Carbon in Agricultural Soils to help Mitigate Global 
      Warming, submitted by Richard Stuckey......................   105
    U.S. Carbon Cycle Science Plan (a Report of the Carbon and 
      Climate Working Group), submitted by David J. Hofmann 
      (retained in the Committee files)..........................

 
CARBON CYCLE RESEARCH AND AGRICULTURE'S ROLE IN REDUCING CLIMATE CHANGE

                              ----------                              


                         THURSDAY, MAY 4, 2000

                                       U.S. Senate,
  Subcommittee on Production and Price Competitiveness, of 
     the Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
room SR-328A, Russell Senate Office Building, Hon. Pat Roberts, 
(Chairman of the Subcommittee,) presiding.
    Present or submitting a statement: Senators Grassley, 
Kerrey, and Johnson.

  OPENING STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM 
    KANSAS, CHAIRMAN, SUBCOMMITTEE ON PRODUCTION AND PRICE 
 COMPETITIVENESS, OF THE COMMITTEE ON AGRICULTURE, NUTRITION, 
                          AND FORESTRY

    The Chairman. The Subcommittee will come to order.
    I have an opening statement, a brief opening statement, and 
then we will get right to the witnesses. A special good 
afternoon and a welcome to today's hearing.
    Given scientific uncertainties about the magnitude, the 
timing, the rate, and the regional consequences of climate 
change. What are the appropriate responses to the problem in 
regards to world decisionmakers? The administration has decided 
that the Kyoto Protocol, which mandates the United States to 
cut its energy usage 7-percent below 1990 levels with little or 
no developing Nation participation, may be the appropriate 
method.
    I am not going to open up a debate about the treaty or 
climate change, but, obviously, I think all of us are 
interested in finding a solution, more especially those of us 
that have the privilege of representing agriculture. One 
component of a solution is croplands, soils, and forests that 
can soak up carbon dioxide. We will hear today from the leader 
of NOAA, the Agency that reports that crops, soils, and forests 
have the ability to absorb most if not all of the carbon 
dioxide emitted through fossil fuel emissions. Let me repeat 
that: crops, soils, and forests have the ability to absorb most 
if not all of the carbon dioxide emitted through possible fuel 
emissions.
    Is there a sensible solution to climate change that has 
benefits for agriculture as opposed to pursuing a different 
kind of strategy--it might be diplomatic, but it also might be 
highly regulatory--that may impose harsh unforeseen 
consequences on the United States?
    I have introduced legislation that will promote 
agricultural research in the area of climate change while 
giving producers and policymakers a better understanding of the 
link between the carbon cycle and agricultural best management 
practices.
    This bill, S. 1066, the Carbon Cycle and Agricultural Best 
Practices Research Act, would authorize the Department of 
Agriculture to conduct needed research on the mechanics of 
storing carbon in soil and to perform research that will better 
define agriculture's ability to solve climate change. Why? 
Agriculture may have the ability to store 200-million tons of 
carbon annually or the equivalent of 307-million-tons-of-coal, 
and that is, to put it mildly, a lot of carbon. For a regional 
perspective, a large utility in Kansas uses about 10- to 11-
million tons of coal annually.
    The research focuses on best management practices such as 
conservation tillage, efficient fertilizer application, 
intensive crop rotations, and increased cover crops. These 
practices actually reduce soil erosion and reduce the fuel 
costs, they improve soil fertility, they improve water quality, 
and they increase production. For this reason, the promotion of 
conservation practices in agriculture remains a win-win 
opportunity--and I don't know how many other positives I 
mentioned there, but we could list the same number of wins 
after each one--in regards to everyone.
    With that in mind, I am pleased to welcome the panels here 
today and look forward to hearing about agriculture's role in 
mitigating greenhouse gases. Now, today's panelists include 
representatives from our Government agencies, leading carbon 
cycle researchers, and also agriculture producers who have 
embraced best management practices. Unfortunately, because we 
are in the middle of the planting season, one of the producers 
that was invited to testify, Mr. Clark Woodworth, from 
Sterling, Kansas, America, could not make the trip to 
Washington, and I would like to submit his testimony for the 
record at this point.
    [The prepared statement of Mr. Woodworth can be found in 
the appendix on page 102.]
    Let me welcome to the panel David J. Hofmann, who is the 
Director of Climate Change Monitoring and Diagnostic Laboratory 
at the National Oceanic and Atmospheric Administration, NOAA, 
in Boulder, Colorado; the eminent Chief Economist of the 
Department of Agriculture, Mr. Keith Collins; and Richard 
Stuckey, the Executive Vice President of the Council for 
Agriculture Science and Technology. The acronym for that is 
CAST, but the real acronym is that this organization has 
provided agriculture down through the years a very strong 
policy recommendation on behalf of sound science.
    Let me remind all the panelists that your entire testimony 
will be submitted for the record. I would ask you to limit your 
statements to no more than 5-minutes so that everybody has 
ample time to be heard. We do have, as everybody knows, a tough 
schedule here in the Senate with the Appropriations Committee 
meeting and the education bill on the floor. And so if you 
could perhaps hold your remarks to about 5-minutes, it would be 
appreciated.
    David, why don't you start off, please?

    STATEMENT OF DAVID J. HOFMANN, DIRECTOR, CLIMATE CHANGE 
  MONITORING AND DIAGNOSTIC LABORATORY, NATIONAL OCEANIC AND 
         ATMOSPHERIC ADMINISTRATION, BOULDER, COLORADO

    Dr. Hofmann. Good afternoon. I am Dr. David Hofmann, the 
Director of NOAA's Climate Monitoring and Diagnostics 
Laboratory in Boulder, Colorado. Thank you, Mr. Chairman, for 
providing me the opportunity to testify before this committee 
on atmospheric carbon dioxide research and the important role 
that the terrestrial biosphere--the soils, trees, and plants--
now appear to play in taking up human-produced carbon dioxide. 
I am honored to be here today and am grateful for your 
leadership in bringing attention to this important issue. My 
written testimony briefly reviews what we know about carbon 
dioxide uptake by the terrestrial biosphere which have been 
obtained from large-scale global atmospheric measurements which 
the NOAA laboratory I work for has been conducting for many 
years.
    As you know, the burning of fossil fuels and conversion of 
forested land for agricultural use has caused an increase in 
the concentration of carbon dioxide in the atmosphere. One of 
the most famous environmental records comes from one of the 
observatories in our laboratory, the one in Hawaii at Mauna 
Loa. And having been a scientist for about 35-years and only an 
administrator for about five, I still have to have a chart in 
order to speak coherently. And Andrew Larkin is putting up some 
charts over there. You also have a copy on your desk that shows 
the Mauna Loa carbon dioxide record, and what you see besides 
the major increase from the 1957 period when the record began 
are these oscillations up and down, and this is evidence how 
the global biosphere, the terrestrial biosphere, takes up 
carbon in the summer, and in the winter it increases again.
    [The information referred to can be found in the appendix 
on page 113.]
    If you go to the same latitude in the Southern Hemisphere, 
you don't see these huge oscillations because they don't have 
the land there and the trees to the extent that we do in the 
Northern Hemisphere.
    So that is very important evidence right off the bat that 
the terrestrial biosphere is important. But data such as these 
allow us to get a global picture of how carbon dioxide moves 
through a mobile system of carbon exchange. Carbon dioxide is 
exchanged between three major global reservoirs, and I show 
those with the next chart: the oceans and the land exchanging 
carbon with the atmosphere. And the little yellow blocks to the 
right show how much carbon is exchanged. The tallest one has 
about 90-billion tons of carbon, and that is exchanged between 
the ocean and the atmosphere. Next, the land exchanges about 
50- or 60-billion-tons. And yet the human emissions are only 
about 8-billion-tons, the third block from the left, and the 
amount that the ocean and the lands actually uptake is only 
about half of that, about 4-billion-tons.
    So the problem is that we have a system that takes up a lot 
of carbon, gives off a lot of carbon, but only keeps about 2-
percent of it. And so the question is: How can we enhance this? 
Is there some way that we can do that?
    Prior to about 1990, it was believed that the oceans played 
the major role in taking up about half of this excess human 
carbon dioxide and that the lands played only a minor role. In 
the last 10-years we have a lot of new information, new 
techniques. For example, not all carbon dioxide molecules are 
the same. Some of them have a heavy carbon atom, carbon-13, and 
plants don't like carbon-13. They discriminate against it. They 
like to take up ordinary carbon-12. But the oceans don't care, 
they take up 13, they take up 12. And so if we measure not only 
the carbon dioxide but the isotopic composition, about 8- in 
1,000-molecules are carbon-13. We can fingerprint the carbon 
dioxide. Where does it come from? We have been doing that now 
for almost 10-years, and we are convinced that there is a major 
terrestrial sink on the planet, and most of the evidence 
suggests that it is, indeed, in North America.
    The next figure shows a block diagram of how we think 
carbon is partitioned. This is, again, in billion-tons-of-
carbon. Remember, humans put out about 8-billion-tons. On the 
left is the amount that the lands take up. The dark blue bars 
is the average between 1991 and 1997. We see that the lands 
have taken up about 3-billion tons, the oceans about two, and 
the rest remains in the atmosphere, about 3- to 4-billion-tons. 
But it is highly variable, and that is very important.
    In 1998, the amount in the atmosphere, the red bar, jumped 
up to 6-million tons. The land only took up half as much as it 
usually did, the oceans even less. In 1999, the land picked up 
again and took up a lot of carbon.
    We don't understand this, Mr. Chairman. We don't know why 
there is such high variability and such large amounts of uptake 
in some years. There is other evidence from surveys and models, 
that suggests the biosphere does not take up that much carbon. 
It is this uncertainty which gave rise to the U.S. Carbon Cycle 
Science Plan, and I think it is this plan that will help us 
understand these variations and pinpoint where the carbon is 
going.
    Finally, thank you, Mr. Chairman, for your interest in this 
matter. I would be happy to address any questions you or your 
committee may have.
    The Chairman. If you have a final point or some additional 
points, go ahead. Don't pay attention to that red light.
    [Laughter.]
    Dr. Hofmann. I would like to say just a little bit more 
about the U.S. Carbon Cycle Science Plan.
    The Chairman. We might as well turn that off. It is 
abetting the global warming. We don't want to do that.
    [Laughter.]
    Dr. Hofmann. The U.S. Global Change Research Program 
several years ago produced a report entitled ``A U.S. Carbon 
Cycle Science Plan,'' and copies of this report actually were 
sent over here earlier, and they should be around here 
somewhere. It looks like this.
    The Chairman. Yes, we have it up here.
    Dr. Hofmann. It is a green book with some pretty pictures 
on the cover. A group of 15-scientists who are leaders in 
carbon cycle research from all the agencies that are involved--
NASA, NSF, NOAA, USDA, DOE, USGS--produced the plan which 
focuses on the North American carbon cycle sink. Is it a sink 
or isn't it?
    To me, the atmosphere doesn't lie. What is in the 
atmosphere is sort of where the rubber meets the road because 
that is what is going to cause the problems. And now what we 
have to do is try to make the measurements on a regional scale, 
flux towers, inventories, make those measurements converge with 
the rest of the picture. It is kind of like you have an 
elephant and you are trying to identify it, and one group is up 
close and they say it is gray and wrinkly. Another one is off 
in an airplane and say it is a gray blob. So it is that 
intermediate range, getting 100 yards from it, and saying, yes, 
that is an elephant. That is what we need. And we know how to 
do it, and the Carbon Cycle Science Plan outlines it.
    Thank you.
    [The prepared statement of Dr. Hofmann can be found in the 
appendix on page 46.]
    The Chairman. That would certainly lend a lot of 
specificity and a lot of explanation to what we are trying to 
get a hold of, a small gray elephant.
    Mr. Johnson, welcome to the Subcommittee, Sir.
    Keith, why don't you proceed?

STATEMENT OF KEITH COLLINS, CHIEF ECONOMIST, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC.

    Mr. Collins. Thank you very much, Mr. Chairman. Thank you 
for inviting the Department of Agriculture to participate 
today, and thanks, too, for holding this hearing because it 
brings attention to such an important subject. I am going to 
briefly review our activities in this area and identify some of 
the places where we think greater research is needed.
    At USDA we believe that human-created greenhouse gas 
emissions present potential risks as well as opportunities for 
the Nation's farmers and ranchers and that over time they could 
have important consequences for farm production, farm prices, 
and farm income. Consequently, we consider carbon cycle 
research a top priority, a top research priority. And, in fact, 
in our fiscal year 2001 budget request, we have asked for more 
than a doubling of funding for this work.
    Our program tries to understand how increasing 
concentrations of greenhouse gases in the atmosphere affect 
food, fiber, and forest production in the ecosystems that they 
are in and how agricultural activities can contribute to a 
reduction in greenhouse gases. We have a simple goal, and that 
is to provide credible information for farmers, ranchers, 
foresters, policy officials, and the public.
    Our research program is conducted by scientists in several 
agencies: the Agricultural Research Service, the Natural 
Resources Conservation Service, the Forest Service. It is 
conducted by economists in the Economic Research Service and 
also conducted through grants provided to universities through 
the Cooperative State Research Extension and Education Service.
    I want to emphasize that in many of our agencies our 
efforts are closely linked with the land-grant university 
system. And I also want to emphasize that on our program side, 
our delivery of conservation programs, we have long had an 
interest in soil organic carbon because it improves soil, 
water, and air quality, all co-benefits of sequestering carbon, 
or sequestering carbon is a co-benefit of better soil, water, 
and air quality.
    Well, what are we doing? We are doing things like examining 
how plants use carbon dioxide and convert it to soil organic 
carbon. Some of that work looks at, for example, how higher 
CO<INF>2</INF> concentrations affect yields and how higher 
concentrations of CO<INF>2</INF>, working with the water cycle, 
the nitrogen cycle, the phosphorus cycle, weeds, how they all 
interact together to affect yields.
    We have research at a number of sites on how crop 
management practices affect carbon sequestration, and in 
cooperation with universities, we are taking the results of 
that research and trying to build a simple field-level tool, 
which goes by the name of CQUESTER, that producers, technicians 
of USDA, and consultants could all use in the field to estimate 
stored carbon based on a soil type, climate, land use, and crop 
management practice.
    We are also trying to bring the benefits of soil carbon to 
the attention of the Nation's farmers and ranchers in various 
ways and communicate better with the agriculture community. For 
example, the recent agricultural dialogue series that we are 
conducting facilitated by Meridian House would be one example 
of that.
    On the economic side, we are focusing on the economic costs 
and benefits of efforts to reduce emissions and sequester 
carbon, including looking at the impacts of alternative 
policies to promote increased sequestration.
    In my longer testimony I also outline some of the work of 
the Forest Service, and I do that because I think it is very 
important for production agriculture. For example, they are 
looking at cost-efficient ways to convert wood into ethanol. We 
might ultimately see the use of short rotation trees perhaps 
grown by farmers for ethanol that could reduce emissions by 
both sequestering carbon and by replacing fossil fuel.
    Well, despite the good things that we are doing, a lot more 
needs to be done, and I know on the next panel we have one of 
our notable researchers at USDA, John Kimble, who is going to 
go into some of those research challenges. We have submitted a 
budget request for an increase of $22 million for carbon cycle 
research for fiscal year 2001. Much of that effort would be 
focusing on measuring the effects of management practices on 
crop and grazing lands, establishing 20 observation sites 
around the country for measuring carbon flows. Our work would 
range from basic research on the role of soil microbes to more 
applied research to improve our models that estimate carbon 
storage under a range of conditions, locations, and practices 
from the field level to the regional level to the national 
level.
    We also need improved soil databases. We would like to 
complete our soil survey and put online a national soils 
information system with soil carbon data for agricultural 
regions and for major crop management systems. And we also need 
to undertake better field validation and calibration to ground 
truth the modeling, the remote sensing, and the statistical 
carbon stock measurement approaches that are used.
    This year, for example, we have a project called the 
terrestrial carbon management project, and what we are trying 
to do with that is produce credible national estimates of 
carbon inventories associated with agricultural land uses and 
management practices. And we plan to use that work to estimate 
how a carbon market would affect land-use change and management 
decisions on farms, and the effects of those on farm 
production, farm prices, and farm incomes.
    In conclusion, I believe that USDA is working in 
partnership with other Federal agencies, with the university 
community, and we are responding to the information needs of 
the carbon cycle. But a lot more needs to be done. Today there 
is growing enthusiasm in agriculture for carbon sequestration 
because many producers, I believe, see an opportunity to 
benefit the environment, but they also see a new source of 
income. Well, I see that potential, too, but I believe we have 
to be realistic.
    Today there is no effective market for carbon, and there 
remain considerable uncertainties regarding the levels and 
persistence of carbon storage associated with many agricultural 
activities. But what we do know is that sequestering carbon 
through best management practices is indispensable for soil, 
water, and air quality benefits. And to make those practices, 
those BMPs, financially rewarding for carbon storage is going 
to take some time and a much greater research effort.
    Thank you.
    [The prepared statement of Mr. Collins can be found in the 
appendix on page 56.]
    The Chairman. Thank you, Keith.
    Senator Johnson, would you like to make any comment at this 
point? Welcome to the Subcommittee.

STATEMENT OF HON. TIM JOHNSON, A U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Well, thank you, Mr. Chairman. I 
appreciate your leadership on this issue. It is one that I have 
some interest in. So that we can expedite the panel discussion 
here, which I think is the main point of all of this, I would 
submit my statement for the record for the Subcommittee.
    The Chairman. Without objection, it will be placed in the 
record at this point.
    Dr. Stuckey.

    STATEMENT OF RICHARD E. STUCKEY, PH.D., EXECUTIVE VICE 
   PRESIDENT, COUNCIL FOR AGRICULTURE SCIENCE AND TECHNOLOGY 
                       (CAST), AMES, IOWA

    Dr. Stuckey. Thank you, Mr. Chairman, and members of the 
Senate Subcommittee. I am Richard E. Stuckey, Executive Vice 
President of the Council for Agriculture Science and Technology 
(CAST), whose mission is to identify and interpret scientific 
research information for legislators, regulators, the media, 
and others involved in public policymaking. CAST is an 
organization that represents 38 professional scientific 
societies whose individual members exceed 180,000 scientists.
    Because it is not possible for one person to reflect the 
multifaceted views of all CAST members, especially on this 
particular topic today, I do, however, think that my testimony 
represents the large majority of our membership. It has been 
endorsed by the Executive Committee of CAST.
    CAST has addressed various aspects of agricultural and 
climate change on previous occasions. Many of you will recall 
the 1992 CAST report that was prepared for the climate change 
meetings held in Rio de Janeiro in 1992. In December of 1998, 
CAST cohosted, with the Pacific Northwest National Laboratory 
and Oak Ridge National Laboratory, a workshop on ``Carbon 
Sequestration in Soils: Science, Monitoring, and Beyond.'' This 
was held at St. Michaels, Maryland. CAST subsequently produced 
an issue paper that summarized this large publication into 
about seven or eight pages on the workshop that was held. CAST 
has also identified a new task force that will be meeting next 
week to begin work on a new report that is tentatively titled 
``Agriculture's Response to the Climate Change Challenge.''
    Let me talk just a bit about the St. Michaels' workshop. 
This was attended by nearly 100 invited persons, mostly from 
the United States and from Canada. It represented people from 
the White House, regulators, congressional staff, plant and 
equipment industries, Federal agencies and laboratories, 
consumer groups, growers and grower organizations, and 
university scientists. The 3-day workshop addressed four areas 
of soil carbon sequestration: science, monitoring, 
decertification, and policy and economics. I would like to make 
a few comments on the first two.
    The science: Findings of the St. Michaels' workshop were 
that organic matter contributes greatly to plant productivity 
and ecosystem stability. Soil organic matter plays a central 
role in the global carbon cycle. Agricultural practices that 
conserve soil and increase productivity while improving soil 
quality also increase the carbon content in soils, thereby 
removing carbon dioxide from the atmosphere.
    There is excellent potential for carbon sequestration in 
all managed soils. Promising lines of research are evolving 
that could lead to an improved understanding of soil carbon 
dynamics and the subsequent development of superior carbon 
sequestration methods. Among these are understanding the 
mechanisms of carbon stabilization, landscape effects on carbon 
sequestration, biotechnology to enhance plant productivity and 
favor carbon sequestration, and a better understanding of the 
environmental effects of soil carbon sequestration on erosion, 
nutrient leaching, and emissions of other greenhouse gases.
    A few comments about monitoring. Rapid and accurate 
monitoring and verification systems are a limitation at 
present. We do have the technology to accurate measure carbon 
changes in the soil. Improved and more cost-effective methods 
of monitoring changes in soil carbon likely will come from 
geographical information systems--GIS--and modeling, 
application of high-resolution remote sensing, and continuous 
direct measurements of carbon dioxide exchange between the 
atmosphere and terrestrial ecosystems. It will take a 
combination of instrumentation to effectively monitor and 
verify results. These would range from the in-field carbon 
probes to verifiable simulation model extrapolation using high-
resolution remote sensing and GIS to aggregate larger regional 
areas with time.
    On April 6th and 7th, I participated in the first of a 
three-part series of workshops entitled ``Global Climate Change 
Issues for Agriculture.'' These series of workshops, as the 
former speaker Keith Collins mentioned, were sponsored by the 
United States Department of Agriculture, facilitated by the 
Meridian Institute, and the first was hosted at the American 
Farm Bureau Offices in Washington, DC. These workshops are 
comprised primarily of scientists sharing their knowledge of 
global climate issues with grower and farm organizations. 
Representatives from Federal agencies, congressional staff, the 
White House, and other interested parties are observers to the 
roundtable discussions. I do commend the USDA for sponsoring 
these workshops and, in particular, the many and diverse farm 
organizations that attend to learn, discuss, and share their 
views on the impacts that various actions will have on the 
agriculture sector.
    The farm community has many legitimate concerns: Is global 
warming real? Does agriculture contribute and, if so, how much? 
Can agriculture be a solution? What are the implications of 
temperature and moisture shifts?
    Today, agriculture through the use of best management 
practices contributes substantially to carbon sequestration in 
soils. The sequestration of carbon in soils enhances soil 
quality and helps offset some of the emissions produced by 
agriculture today, which was often described as a win-win 
situation by several presenters at the workshop.
    As a person who interfaces with many scientists and 
producer groups, I want to commend the establishment of the 
workshops involving producer groups and scientists. I strongly 
believe that both groups need to collaborate with policy 
decisionmakers to include science-based solutions in all future 
policies.
    In summary, Mr. Chairman and subcommittee members, I 
believe in agriculture there are two approaches to lessening 
the CO<INF>2</INF> and greenhouse gases, and both these are 
through expanded research and adoption of new technologies. 
Research directed toward improved sequestration of carbon in 
soils and plants and research directed toward new technology 
and improved emission efficiencies and the cropping practices 
that rely less on the fossil fuels are needed. Using good 
management techniques that include rebuilding soil organic 
matter, practicing less tillage rather than more, developing 
and using biofuels, and practicing good environmental 
stewardship will be important contributions by the agricultural 
community.
    We do need to recognize the valuable service of the 
American farmers who provide abundant low-cost and high-quality 
food. We should assist the American farmer by providing 
research opportunities to develop new technologies. Placing the 
primary burden of reducing carbon dioxide and greenhouse gas 
emissions on agriculture without addressing other entities, 
both on a national and on a global scale, that contribute to 
the greenhouse gas emissions will be self-defeating. The 
greenhouse gas emissions is a global problem. With new 
technology yet to be discovered, agriculture will become even 
more benign and productive. We owe it to our society to make it 
so.
    Lastly, I thank you very much for allowing me to present 
this testimony on behalf of the CAST membership.
    [The prepared statement of Dr. Stuckey can be found in the 
appendix on page 71.]
    The Chairman. We thank you, Dr. Stuckey.
    We have been joined now by the distinguished Ranking Member 
of the Subcommittee, the distinguished Senator from Nebraska. 
Would you like to make a statement, Sir?
    Senator Kerrey. Yes.
    The Chairman. Good.

    STATEMENT OF HON. J. ROBERT KERREY, A U.S. SENATOR FROM 
NEBRASKA, RANKING MEMBER, SUBCOMMITTEE ON PRODUCTION AND PRICE 
 COMPETITIVENESS, OF THE COMMITTEE ON AGRICULTURE, NUTRITION, 
                          AND FORESTRY

    Senator Kerrey. First, thank you very much for holding the 
hearing, and I think we are dealing with a subject here that--
Dr. Stuckey used the phrase ``win-win.'' There may actually be 
more than just two wins in this.
    The Chairman. I had five in my opening statement.
    [Laughter.]
    The Chairman. Did you have five? Wow. Five wins.
    Dr. Stuckey. I had to keep it to 5-minutes, or I tried to.
    The Chairman. That is more than he used to get in an entire 
year.
    [Laughter.]
     Yes. I am very happy you can remember over a decade ago.
    [Laughter.]
    Senator Kerrey. I recently noted a long story on the 
subject of drought connected to soil and the decreased risk of 
soil loss as a consequence of tremendous soil conservation 
efforts that have occurred on private land over the last 70-
years since the last time that a drought did tremendous damage 
to the soil of this country. I noted in this story that the 
heart of it was how dependent farmers are upon weather. It is 
still, it seems to me, one of the most important things to 
remind the non-agriculture community as to why we spend so much 
time worrying about this one business and we don't worry about 
other businesses nearly so much. In addition to producing a 
vital product, it is also producing a product and environment 
that is different than any other business in our economy, which 
is you are producing something outside. And as a consequence, 
you are really vulnerable to changes in the weather.
    I noted in this story, in fact, that the 1988 drought 
produced $40 billion worth of damage versus Hurricane Andrew 
that produced about $28 to $33 billion and versus the 1993 
Mississippi flood, which was the most destructive in terms of 
property damage in current dollars, of $25 billion. So not only 
is there a lot at stake at the micro level, there is a lot at 
stake at the macro level as we watch these changes in the 
weather and try to analyze whether or not there is a change in 
the climate that is occurring as a consequence of our need to 
produce not just food, but other things that we oftentimes both 
need and take for granted.
    What I saw down in Argentina when we went down there for 
the follow-on to Kyoto was a willingness to allow something 
that farmers in Nebraska and Kansas and South Dakota and 
throughout the United States were already doing as a 
consequence both of a desire to save soil and the desire to 
reduce their energy consumption and to make their operations 
more efficient. So it seems to me that we have an opportunity 
here with our policy to not only encourage carbon 
sequestration, which my prediction is will be shown to be a 
vital part of mitigating the potential damages to the 
environment through climate change, but at the same time 
produce income to the farmer. I don't know what your other 
three were, but you are going to be saving soil and you are 
going to be making the farm more efficient. That is four. What 
was your fifth?
    The Chairman. Well, we had clean water, clean air, saving 
soil, conservation, and----
    Senator Kerrey. We need an acronym.
    [Laughter.]
    We will go to work on that after this hearing.
    Anyway, Mr. Chairman, I appreciate very much your calling 
this hearing to get this policy right. I think we could do a 
lot of good with one simultaneous action, and I look forward to 
the rest of the testimony.
    The Chairman. Well, thank you. I thank the Senator for his 
leadership.
    David, Dr. Hofmann, return with me now to the thrilling 
days of 1998 when the plane from New Zealand arrived with 
Chairman Stevens, and you all stood at parade rest before the 
Chairman of the Appropriations Committee at the South Pole, and 
we discussed climate change. I would say for my subcommittee 
colleagues and the audience that we were warned before we left 
the plane--we had several layers of clothing, to say the 
least--not to exert ourselves and not to drink hot coffee, and 
that was about, what, 9,300 feet. I think that is about right, 
most of it ice. And so I did precisely that. I was pretty 
excited, and I ran around there and went inside for some of the 
briefings, and the first thing I did was have a hot cup of 
coffee. And then I couldn't figure out why I thought we were 
having an earthquake in the South Pole. You get a little woozy 
up there with the altitude and everything else.
    But the person who really got my attention was you, Dr. 
Hofmann, and if there is a God prince in this effort in regard 
to the research bill I have introduced, and in many bills that 
are now being considered--Senator Brownback has a bill; others 
have bills--I think largely you have been a real catalyst 
factor in that determination.
    And I asked you, I just said point-blank, here we are in 
agriculture worried to death, where we have proposals under the 
Kyoto treaty that we have to go back to 1990 energy levels. We 
can't do that. Minus 7-percent, my Lord, we can't do that. Or 
at least I don't think we can do that. And then we looked at 
some of the proposed--I don't want to call them regulations 
yet, but they are proposals that are involved in the treaty. 
The Senate voted 95-0 in regards to saying, wait a minute, we 
are not too sure this is the right approach unless everybody 
joins the effort and unless we can prove there is no serious 
economic harm not only to agriculture but to the business 
community as well.
    And I said, What do you think about that? And, of course, 
Dr. Hofmann was a little hesitant to get into that debate. But 
I said, How can we do this? And, obviously, he had all of the 
research in regards to the ice cores there. And so I said, you 
know, what is your suggestion? If we went with the Kyoto 
treaty, after 100-years how much carbon do we get out of the 
atmosphere? And I can't recall what you said, Dr. Hofmann, but 
it really wasn't very much. And then I said, Over 50-years, if 
we went through best management practices and also encouraging 
industry and a whole series of other things, and you indicated 
it would be much more salutary, or at least in terms of 
practical progress, it might work a lot better.
    Now, I am putting a lot of words in your mouth. I hope that 
is your recollection of it. And I was quite interested in your 
research, and I thought you made one heck of a lot of sense. 
And the thing that I will never forget--and the staff even 
wrote it down for me. You said, well, you know, between 1988 
and 1992, the North American continent was a carbon sink to the 
extent we took more out of the atmosphere than we put back in, 
in regards to fossil fuel emission. And that just knocked my 
socks off--well, not there it didn't knock my socks off, but 
that really impressed me. From the standpoint that a lot of 
people in this debate over global warming and what we do and 
accepting our responsibilities, I came back and I informed the 
entire ag community that I have contact with, hey, we can be a 
partner in this effort. We have just got to find out why.
    We desperately need the research, and I said, well, what 
happened from 1992 on? Because I thought that was a startling 
thing that you said. Well, we really didn't have the means to 
go ahead and continue the monitoring. I think that is 
incredible, I would say to my Senate colleagues.
    So after that rather long-winded dissertation, I guess, 
asserting to you what you said, what advice do you have for the 
Senate on this issue? Sort of like if the rest of the Senators 
ask what I asked you back in 1998.
    Dr. Hofmann. Well, first of all, I think I made 18-trips to 
the South Pole thus far, and while they are all rewarding, I 
think I remember that one in 1998 the best. We dedicated a new 
building there, a new atmospheric sampling building. Dr. Baker, 
the Administrator of NOAA, came and I knew that 6 Senators were 
coming shortly, and Dr. Baker left because he had to get back 
to Washington. But I decided I wanted to stay on and talk to 
these folks when they came in, which I did. And I personally 
found it extremely gratifying that you took the interest that 
you did in what we were doing down there.
    One could ask why would you want to measure greenhouse 
gases at the South Pole. That is farthest away from the source 
of this pollution. And the point is that we at NOAA measure all 
over the world, and it is places like Barrow, Alaska, where we 
have an observatory, the South Pole, that kind of anchors the 
network. That is what holds it firm. And then all this stuff is 
going on in between, and by making measurements all over the 
globe, that is how we get the data that we can build these bar 
charts that I showed earlier about the sources and sinks.
    So the fact that we are here today because of the interest 
you took in what we were doing there and what it could lead to 
is extremely gratifying.
    Now, on the other issue, as we all know, climate change is 
an important issue, and I think in NOAA, as scientists, we take 
pride in the fact that the data that we collect, the science 
that we do, is done completely independently of other things 
that may be going on in the world. We collect data. We analyze 
it. We say this is our best estimate of what is happening here. 
And we hope that this information provides the kind of 
information that policymakers need in order to make the right 
choices when it comes to some of the choices that will have to 
be made.
    As far as my own personal feelings, I don't think they 
amount to much as far as these things go, and I would like to 
keep the science in focus, and whenever this question comes up, 
I just want to say let us do the work that we need to do, and 
we can provide the information that you will need to make those 
decisions.
    The Chairman. I am not going to paraphrase your remarks 
anymore other than that we are not going to ask you how you 
would vote on the Kyoto treaty, but----
    Dr. Hofmann. I don't know how to spell Kyoto.
    [Laughter.]
    The Chairman. It is called trouble, t-r-o-u-b-l-e.
    I see that the distinguished Senator from Iowa has joined 
us, and I was wondering if he would want to make a statement at 
this point before we proceed with any questions. Would the 
distinguished Senator have anything to say at this point?

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM IOWA

    Senator Grassley. Yes, I am going to do my statement 
partly. I acknowledge Dr. Stuckey being here. His leadership in 
this not only in the State of Iowa but through the Council on 
Agricultural Sciences and Technology, his leadership at the St. 
Michaels, Maryland, with the Department of Energy's issue of 
how to deal with carbon sequestration.
    The conclusions that I have that I would like to discuss 
for two pages deal with those of us who are interested in 
improving the environment and promoting the well-being of the 
agricultural community obviously see carbon sequestration 
holding limitless potential. The idea of trading carbon credits 
between large international entities and the family farmer is 
very appealing. In fact, it is appealing enough now that it is 
appearing in the articles in all of the farm magazines that I 
subscribe to. And so it is out there for farmers to consider.
    You are probably aware of the headline on the Wichita 
Eagle's website to see that this is happening as we sit here 
today. The headline reads: ``Farmer Enlisted to Help Fight 
Carbon Dioxide Emissions.'' The stories refer to the Canadian 
energy companies which are willing to pay American farmers to 
quit plowing so that carbon is trapped in the soil.
    One of my constituents from West Des Moines, Steve Griffin, 
of CQUEST, Ltd., states in the story that he has signed farmers 
up to reduce plowing by 2.5-million acres, mostly in my home 
State, under this Canadian offer, and right now Griffin expects 
to pay farmers a couple of dollars-a-year-per-acre.
    The problem I see with this is that no one yet has 
determined the true value due to the fact that science lags in 
this area. And so, consequently, very important that we get 
these panels together to get as much information as we can and 
to make real advancements in this way of bettering our 
environment and also at the same time helping the family 
farmer.
    I ask permission to put my entire statement in the record.
    The Chairman. Without objection, it is so ordered, and I 
want to thank the Senator for his long-time interest and his 
long-time leadership in this whole subject area.
    David, the ARS--there is the acronym. The Agricultural 
Research Service has been working to build a U.S. trace gas 
network at Fort Collins, and considering your office's very 
close proximity to the research, would NOAA be willing to work 
with ARS and obviously try to draw both of the agencies' 
expertise to perfect this research? Is there any reason why we 
can't do that?
    Dr. Hofmann. Mr. Chairman, no. I don't believe there are. 
Speaking for my laboratory and scientists that work with me, we 
in general welcome any collaborative arrangement that will 
provide more information, will further the research goals, and 
now we have a U.S. Carbon Cycle Science Plan which specifically 
talks about collaborations between people who make measurements 
on a very small scale to the very large scale. And also in your 
bill you pointed out the importance of having interagency 
collaboration, and that is, I think, the basis of the U.S. 
Carbon Cycle Science Plan.
    The Chairman. Is that working a lot better now? I know when 
we talked about it 2-years ago, we had some concerns that the 
left hand didn't know what the right hand was doing, you know, 
the classic status. In regards to the outside entities and all 
the agencies involved, do you think we are doing better? You 
know, what is your perspective on it?
    Dr. Hofmann. I think the Carbon Cycle Science Plan clearly 
shows that this is what has to be done, and in terms of this 
particular possible collaboration with Fort Collins, it turns 
out that we actually are making small aircraft sampling flights 
in northeastern Colorado. It is one of the few sites that we 
can afford to make these measurements, and we would be happy to 
have a scientific collaboration. If somebody is working on the 
ground, we would like to be making measurements up above them 
so we can couple these together and get a lot more for the 
money that we are spending. And I don't see any reason why we 
couldn't work with the folks at Fort Collins and the 
Agricultural Research Service and tell them what we are doing, 
and perhaps we could even arrange some interactive 
collaboration.
    The Chairman. I think it is a good suggestion. We will get 
in touch with Secretary Glickman.
    What are you requesting in 2001 in the budget to help NOAA 
make some progress in carbon cycle science?
    Dr. Hofmann. NOAA has a new initiative in 2001 that is 
called ``Climate Observations and Services.'' It is a new line 
item. We feel that in the long run this is what we are going to 
have to do. We are going to have to bring climate observations 
into a line itself. The total bill is asking for about $28 
million. In it is support for the baseline observatories that 
you are now familiar with. There are requests for ocean 
observations, for dealing with all the data that is coming in, 
and a lot of that would directly affect carbon cycle research. 
So this is an extremely important initiative. We have been 
working on it for a long time, and we will continue to work on 
it until we finally are able to make the kinds of measurements 
that we need to extend the range from this micro scale to the 
macro scale.
    The Chairman. We are going to do the ag approps bill here 
fairly quickly. Do you think that is enough money for you, or 
could you stand a little plus-up? Within the budget limitations 
we must live with, you know, I must say that. I can't think of 
anything--well, I don't want to say that, but----
    Dr. Hofmann. I think stressing collaborative research 
between the agricultural groups and some of the things we do 
would be a first step.
    The Chairman. I would say to Senator Kerrey and Senator 
Grassley, we both know that when we are in the gauntlet of 
trying to write a new farm bill next year, this is going to be 
a premier item in that consideration. And the faster that we 
get the proper kind of research and the criteria so that we can 
figure out where we are on this, the faster we are able to get 
to a section of the farm bill to try to encourage more best 
management practices. And I think down the road, after a series 
of years, that is going to be a very significant part of the 
farm bill. So in terms of appropriations, what we can do to 
speed this up--and I know you don't want to just expedite it in 
terms of the time schedule. You have to do it right. You have 
to do it from a sound science standpoint. But I would certainly 
be willing to listen to anybody from NOAA and to smother our 
friends on the Appropriations Committee with the milk of 
positive, I guess, suggestions. So if you have any suggestions 
along that line, I would appreciate it.
    Let me get to--let's see here. Keith, as we speak, the 
State Department is in an international conference in Montreal 
discussing the Intergovernmental Panel on Climate Change. That 
is the IPCC. That is the summary for policymakers on land use 
and land-use change and forestry. The summary for policymakers 
outlines some very critical issues for the agriculture 
community. Some issues include statements about North America 
again being a net carbon sink, the accurate definitions of 
reforestation, deforestation, and the role of agriculture in 
emission reductions.
    How has the Department coordinated with the State 
Department to ensure that our agriculture voice is being 
clearly heard in this international setting? And who from the 
USDA is attending these meetings?
    Mr. Collins. Mr. Chairman, that report that you just 
described is the summary for policymakers of a special report 
being done by the Intergovernmental Panel on Climate Change at 
the request of the UN Framework Convention on Climate Change. 
That report has been in construction for the past year, and the 
people who have drafted that report, in fact, include USDA 
people as well as university researchers around the country, as 
well as people from other Federal agencies.
    That report, after it was drafted by the scientists, went 
through a technical review of other scientists from all around 
the world. And then after the technical review, it went through 
a governmental review, and it was at that point that USDA, 
besides being involved in writing it and in the technical 
review, also participated in the Government review.
    In fact, the State Department asked USDA to coordinate the 
Government-wide review of that report. That was coordinated 
through my office, and every agency of the Federal Government 
participated in that, including the Department of Defense, and 
we prepared 200-pages of comments for the report that went back 
to the IPCC.
    What is going on in Montreal this week is now that they 
have incorporated those comments in this summary of the report, 
which is a 95-paragraph summary, it is being gone through line 
by line by the countries of the world. The U.S. Government 
delegation is headed by the State Department. It does include--
it is a very large delegation. It includes other Federal 
agencies.
    USDA has two people on the delegation: someone from my 
office who is a technical expert and someone from the Forest 
Service who is a technical expert. And they are in contact 
every day with other experts at the USDA, in fact, around the 
country. I spoke this morning with one of our delegates who 
said that, since Monday--and we are now Thursday--they have 
gotten through about 35- of the 95-paragraphs. They are going 
line by line to try to reach an agreement on this report.
    I want to point out on this report--and I think it will be 
interesting for all of us to read. It has nothing to do with 
policy. This is a scientific document. It is to present the 
state of knowledge on carbon sequestration related to land use, 
land-use change, and forestry. And it is being done to provide 
the scientific basis for the scientific body that advises the 
UN Framework Convention on Climate Change. That is called the 
Subsidiary Body on Scientific and Technological Advice. So this 
report goes to them. They use this report to advise the 
Framework Convention.
    The Chairman. Well, the reason I ask that, you know, other 
than the obvious reason, is that last year Senator Kerrey and 
Senator Baucus and myself were joined by all of the major farm 
groups, all of the Commodity Organizations, and it was Senator 
Kerrey's leadership, really, that got the meeting together. And 
we were all concerned--and we had the Secretary there, 
Secretary Glickman. We were concerned that ag's voice was not 
being heard in the climate change debate. And then the Meridian 
Institute, as you recall, was asked to organize a series of 
workshops, and they have been ongoing.
    I am basically asking, I guess, Senator Kerrey's question, 
so your response to this is encouraging. We will pore over with 
staff the 95-paragraphs and see how that can work.
    Now, I think you are aware that the Department of 
Agriculture made a statement on its own economic analysis of 
the Kyoto treaty, and I am quoting here, if as a result of 
implementing the Protocol foreign producers face lower costs 
from achieving their targets relative to U.S. producers, our 
commodities will become less competitive, and U.S. export 
demand would fall. In addition, there have been quite a few 
analyses in regards to what would happen if the Protocol were 
ratified and put into effect. One, I think it is by the Farm 
Bureau; I am not sure about that, but there have been several. 
All of them around the 20- to 21-billion range.
    The reason I brought that up is that I have a pamphlet here 
put out by the NRCS, and basically one of the conclusions is 
that we should go ahead with the Protocol. And I don't see the 
economic analysis in there, and I just think that we are 
putting the cart before the horse.
    I don't know if you would have any comment about that, but 
you being the chief economist, I think that if you could put a 
little addendum in there or a footnote at the bottom of this, 
it would have been most helpful. I am not really pleased with 
this at all, as you can tell by my questions. I agree with the 
attention. I agree with all of the things up to the conclusion 
that says we ought to go ahead and approve this. And I would 
remind you there was a 95-0 vote before we could get a handle 
on this.
    Any comment?
    Mr. Collins. Probably plenty. First of all, on the economic 
analysis, we did at USDA do an economic analysis of the Kyoto 
Protocol. We did publish that. It is some 80-pages long. It 
uses the best objective economic models that we have at the 
Department. It did look at a price of carbon that was estimated 
by the Council of Economic Advisers ranging from $14 to $23 a 
ton under implementation of the Kyoto Protocol. We also had 
sensitivity analysis in that report that looked at other carbon 
prices as well. And we found a very, very modest impact on 
American agriculture with the $14 to $23 a ton price. The Farm 
Bureau and other studies that you mentioned simply used much, 
much higher prices of carbon. So it all depends on where you 
think the price of carbon is going to come out in this world.
    Senator Grassley a moment ago talked about emissions 
trading. One of the things that studies have found, including 
the second-generation model at Stanford University, is the 
difference in the price of carbon between having global 
emissions trading and not having global emissions trading is 
50-percent. You can lower the cost of meeting an emissions 
reduction target by 50-percent with trading compared to not 
having trading because you get low-cost ways of reducing carbon 
with trading.
    So I don't know what the price of carbon is going to be, 
but I would say that it very much depends on the assumptions 
you make going into the model that you use. We thought we made 
a fairly reasonable set of assumptions, and we have provided 
some alternatives and did not come out with real large effects.
    Regarding the brochure, I have read that brochure, and I 
don't believe it endorses the Kyoto Protocol. It mentions the 
Kyoto Protocol. Maybe it would have been better not to mention 
it in that brochure. But I think it is--I hope you would agree 
that the purpose of the brochure is to respond to the concerns 
that you, Senator Kerrey, and others had that the Department of 
Agriculture was not visible enough in communicating with the 
agriculture and rural communities about the whole issue of 
carbon sequestration. And so that was one attempt to do that.
    I might say that we have got many other attempts, which I 
hope I can send you some of those as well----
    The Chairman. Well, you know, let's get Bob Kerrey and I 
together when you have the proofs there, and we will just write 
the last paragraph.
    Mr. Collins. All right. Let me mention something about 
that. That brochure went through several drafts, and the NRCS 
actually provided drafts of that brochure to all of the 
commodity groups and to the farm organizations and received 
comments from the American Farm Bureau Federation, the 
environmental groups and so on. They were all invited to help 
cosponsor it to cover the costs because we have limited 
resources for this kind of thing. We have a fairly small 
budget.
    Most of them did not choose to share the cost, but they all 
had an opportunity to review it, and many revisions were made 
in response to their comments.
    The Chairman. I appreciate that. I think you know where I 
am coming from.
    Mr. Collins. I absolutely do.
    The Chairman. And the concern that we have. Where is the 
one-stop location where farmers can go to find out all the 
information they need in regard to what is going on at the 
Department, other agencies, or elsewhere? In other words, sort 
of a clearinghouse for information, sort of a, you know, USDA 
global climate change office, or maybe have a leading 
university like Iowa State or the University of Nebraska or 
even Kansas State running a website with access to the 
clearinghouse.
    Mr. Collins. I am empathetic to the concern behind that 
question.
    The Chairman. Well, there are many, many producers--now, 
this is a hot-button item. I don't know if that is the right 
way to describe it, but I tell you, more and more people are 
understanding what carbon sequestration is. We need a better 
acronym and a better title, I would say to Senator Kerrey. But 
a lot of information out there, and we need sort of a one-stop 
information----
    Mr. Collins. I couldn't agree with you more on this. I have 
been frustrated myself in getting information. I asked a member 
of my staff to give me key websites where I could get carbon 
sequestration information, and I got 3-pages of about 50- or 
60-websites. And if you start going to those, you very quickly 
can get very confused.
    That is one of the things that we are trying to do at USDA, 
is provide a better job of bringing our data, our information, 
our analysis online in a coherent way.
    Where is the one-stop shopping? We don't have one-stop 
shopping in terms of a website at this point. We are trying to 
have one-stop shopping as a place where people can go to ask 
questions, and then we would try to answer those questions. We 
do have a global change program office. That office reports to 
me, and we do coordinate the activities of USDA with respect to 
climate change.
    Now, a lot of that effort has simply been in trying to 
develop budgets and trying to make sure the right hand knows 
what the left hand is doing. But we have to go to the next 
step. We have to be able to organize our internal information 
resources and make them better available to the public.
    The Chairman. I appreciate your response.
    Dr. Stuckey, as I indicated last year, Senator Kerrey 
really got us together, and I am talking about the ag 
community, and we were concerned that our voice was not being 
heard in the debate. As a result, the Meridian Institute was 
asked to organize a series of workshops. And I think you just 
participated in the first of three. Is that not correct?
    Dr. Stuckey. Correct.
    The Chairman. There are six of them?
    Senator Kerrey. No, April 6th.
    The Chairman. Oh, April 6th. Do you want to just tell us 
very briefly that the recent discussion session that the 
institute held in conjunction with the Department, in your 
opinion--here is the question. Was the first working group 
meeting worthwhile?
    Dr. Stuckey. I definitely think it was worthwhile because 
it brought together a number of scientists, it brought together 
a diversity of farm organizations. A number are in this room 
that attended that session. I was able to participate and 
attend on the first day. It was a day-and-a-half session.
    It is important that we can communicate a little better. I 
would constructively criticize the format that we had, in that, 
as scientists we often try to give the whole ball of wax, 
lecture too long. And so I think instead of an hour 
presentation followed by discussions, I personally tried to 
keep my comments rather brief so we could enter into some 
discussions. Scientists have a lot of data, a lot of 
information in this area, and they are eager to share that with 
them.
    But I think it was successful from the standpoint that 
scientists could hear some of the grower representatives that 
were there in attendance, their concerns, and so for the two to 
get together and openly discuss those concerns and see where 
the science is, where it is not, I think was beneficial. And I 
heartily endorse the continuation of those remaining two 
sessions.
    The Chairman. I am going to ask you the Dr. Hofmann 
question in terms of organization with all Federal agencies. 
What agency do you think is the lead agency in this regard? How 
well are we working together? That is the Dr. Hofmann question 
I asked him. I am now asking the same question of you.
    Dr. Stuckey. Well, from looking in on the outside, we see a 
number of agencies involved in this area, certainly NOAA; I 
think DOE has been a large player in this. USDA did help 
provide support for our original publication back in 1992. I am 
encouraged that they have an office of global climate change. 
EPA is another organization that has been involved in 
supporting a fair amount of research as well.
    As far as the interagency cooperation among this group, I 
probably don't have enough, really, insight to comment. I would 
just say that more communication would be desirable from what I 
would see.
    The Chairman. How does biotech fit into the carbon cycle 
picture? And that leads into another question. What other new 
technologies can agriculture utilize to help in this regard?
    Dr. Stuckey. Well, biotechnology can play a number of very 
important roles. One is through the structure of the plant, 
trying to genetically create plants that will sequester more 
carbon. Carbon can be sequestered in the soil as well as in the 
plant material in terms of the structure of the root and 
storing of carbon.
    But from a broader perspective, biotechnology can cut down 
on some of the emissions through farming practices. By 
utilizing biotechnology, for example, it makes possible more 
no-till in terms of pest control. If you are able to put that 
resistance to weeds and insects and diseases into the plants, 
it requires less travel, less applications of pesticides over 
the soil. And so in terms of cutting down on some of the 
emissions that we utilize in farming today, it has a tremendous 
potential.
    Another technology that I am very excited about that is 
really in its infancy is the area of nanotechnology. It is 
coming. It is going to be one of the next really bright spots, 
in particular, in cutting some of the emissions that we 
currently have.
    The Chairman. OK. Would you just describe that very 
briefly?
    Dr. Stuckey. Well, perhaps for the audience maybe the 
easiest analogy is to look at the electronics industry, the 
computers. We have computers. We went to the microchips and--
the chips and the microchips, and now we are going down to even 
a more basic level. And it is really creating some of the 
technologies by putting atoms and molecules and beginning at 
that base. That is a very elemental base.
    I had the privilege in early April just prior to the 
Meridian Institute of attending a briefing held by some of your 
colleagues here in the Senate that brought in some professors 
and others dealing with the nanotechnology. And one of the 
things that they demonstrated was a 24-volt battery that wasn't 
more than the size of my little finger. It had all the capacity 
and the power of that.
    And so I think in terms of what is there on the horizon 
through the development of some of these technologies we can 
really enhance the reduction in emissions and the way we farm 
today. We can think of tractors, other equipment and so forth, 
as being much more powerful, smaller, utilization of less 
fuels.
    The Chairman. How long could agriculture soils potentially 
offset further increases in the atmospheric CO<INF>2</INF>? 
Each year our croplands have the potential to sequester a lot 
of carbon every year. Is there a way you could give a 
projection on that?
    Dr. Stuckey. Well, I am sure some of the researchers that 
work in this area could give perhaps a more qualified answer. 
What I have learned in interacting with some of those 
researchers is that it is something that we shouldn't look at 
as a fix for the long term, but it is something that has the 
potential there to help mitigate substantially, for say the 
next 25- to 50-years, something like that time frame. And what 
that does is buy us a lot of time, in other words, for some of 
these new technologies to be evolved so we can incorporate 
those.
    It is, in essence, a buying of time. But even though we do 
that, there are those other four or five win-wins that you 
mentioned earlier, Mr. Chairman, that have been very beneficial 
when we sequester carbon. So we should do it just for----
    The Chairman. Right, it is good to do, anyway.
    Senator Kerrey.
    Senator Kerrey. Dr. Hofmann, let me ask you, first of all, 
whether or not you see a causative relationship between these 
increases in CO<INF>2</INF> levels and climate change itself. I 
apologize I was not here for your verbal testimony, and I 
didn't get all of your testimony read. So I don't know whether 
you view these trend lines which, as you indicated--I did read 
them in your testimony. You see them varying from year to year, 
and there are a lot of variables that we are still trying to 
answer. But do you see these increases to be causative or 
correlative with changes in temperature?
    Dr. Hofmann. Once again climate modeling is not my field. I 
am a physicist. I have studied the basic phenomenon of 
molecules intercepting heat from the earth and re-radiating out 
to space. So, based on the theory of greenhouse gases, yes, 
they are capable of trapping heat in the atmosphere.
    In fact, this planet would be a cold 5-degrees Fahrenheit 
if we did not have any greenhouse gases, water vapor, regular, 
normal carbon dioxide, in the atmosphere. So, we are very 
thankful for greenhouse gases.
    And we can calculate how much----
    Senator Kerrey. So, your answer is, you do not know? Is 
that what this is--this is coming to a theater near you, the 
physicist saying he does not know?
    Dr. Hofmann. The connection between the greenhouse gases we 
are putting in now and climate change, again, I do not know, 
no.
    Senator Kerrey. You do not know if it is correlative or 
causative with increases in temperature?
    Dr. Hofmann. I only know that the theory predicts that 
increased greenhouse gases should warm the atmosphere. I would 
again say that the best that----
    Senator Kerrey. Are you--let me ask it differently--are 
you, does this change bother you? Are you alarmed--as a human 
being who hopes to leave the planet in better shape than what 
you found it, which I presume even a physicist wants to do, 
does it bother you? Do you think this is something we ought to 
be worried about? Should we be concerned about it?
    Dr. Hofmann. I think we really do need to keep track of it, 
to measure as much as we can and try to find out what is 
controlling it so that we can provide the information that you 
guys will need to make these decisions.
    Senator Kerrey. Well, I must say I think we have come a 
long way since both the vote that the Chairman referenced as 
well as Kyoto. Kyoto, and you are actually against Kyoto, in 
the political environment, at least in Washington, on Capitol 
Hill, climate change hardly ever comes up any more. If you 
think we ought to pay attention to it you better tell us 
because we are not. We are coming at this thing from a 
completely different direction. I see a real disconnect, 
frankly.
    What I said earlier was a drought produced $40 billion of 
economic loss in 1988, a drought. Neither Hurricane Andrew nor 
the floods on the Mississippi River in 1993 approached that 
level of economic damage. So, it is true there could be, if all 
I do is look at it narrowly and do not accommodate the possible 
gains through sequestration and other activities, it is true 
there may be some costs attached to changing my behavior. But 
if the behavior that I have is producing something bad, I 
should stop it, it seems to me. It seems to me the definition 
of insanity is to repeat something over and over and over even 
though I know what I am doing is producing something wrong.
    Dr. Hofmann. Yes.
    Senator Kerrey. We depend upon those of you who are looking 
at this thing in an environment where I must tell you right now 
people are almost afraid of climate change as they are of 
Social Security. We are not teeing this thing up as you can see 
from the well attended hearing that we have got here this 
afternoon.
    So, I hear you are saying from your scientific evaluation 
of this you have not reached a conclusion as to whether or not 
there is either a causative or a correlative relationship with 
increased carbon dioxide in the atmosphere and the climate on 
the planet.
    Dr. Hofmann. Yes. If the models were perfect then perhaps 
then we could make all sorts of projections. What we know is 
that if you warm the planet you will put more water into the 
atmosphere, it will become more energetic, and, so, you can 
draw a lot of conclusions. Well, there might be more storms. 
But the models cannot yet predict those things. We are trying 
to get the information.
    Senator Kerrey. Well, only Cindy Crawford is about perfect 
as a model. I do not expect scientific models to be perfect.
    [Laughter.]
    But I do expect scientists to be able to say just as human 
beings, I do not need much more information other than to 
extend this chart out, that is a pretty reliable chart. That 
thing is going up to the right.
    Dr. Hofmann. That is right.
    Senator Kerrey. All right. So, tell me what if it hits 500 
parts per million?
    Dr. Hofmann. Well, the model suggests that when it doubles 
about the year 2100 under business as usual, that depending on 
which model you are look at, there will be a temperature 
increase on the order of 1 to 3.5-degrees.
    Senator Kerrey. And what happens then?
    What happens to corn farmers in Nebraska with 3-degrees of 
increase in temperature?
    Dr. Hofmann. That is a problem because the models cannot 
predict on a regional basis.
    Senator Kerrey. Dr. Collins, can you convert to a problem 
in dollars?
    Mr. Collins. Yes, we can. In fact, I would point you to an 
activity that we are just completing called the National 
Assessment on Climate Change which has been done under the 
auspices of the U.S. Global Change Research Program. USDA had 
responsibility for two sections: the section on agriculture, 
and the section on forests. We will publish the section on 
agriculture in June. And it takes a look at all these climate 
change models.
    It looks at the different scenarios that they are putting 
out and we go from that to regional yields in the United States 
for crops, effects on prices, effects on farm income and so on. 
And, so, we are going to translate that into dollars.
    Senator Kerrey. But your presumption is, yourself as an 
economist, then as somebody has evaluated this is what? What is 
your presumptions? Is this something that we ought to be paying 
attention to?
    Mr. Collins. Oh, my presumption is that I do not have to 
know categorically zero or one, whether it is causative or a 
correlation. I am a probabilistic man. I think the evidence 
suggests that the probability is increasing that there is going 
to be temperature, precipitation changes which are going to 
affect humankind and agricultural. So, it is a probabilistic 
thing. And, as long as it is a probabilistic thing people 
behave based on probability.
    Senator Kerrey. You should write lyrics, Dr. Collins, that 
would be a wonderful song. I am a probabilistic man.
    [Laughter.]
    You have got me rocking and rolling.
    The Chairman. I have a comment that I think is pertinent to 
your line of questioning and I do not want to interrupt you 
because I want to know if there are any more song titles.
    Senator Kerrey. Well, Mr. Chairman, the Ag Approps 
Committee this morning put this language in the Ag Approps 
bill: ``The Committee does not include funds for global climate 
change, biomass products initiatives or the Community Federal 
Information Partnerships as requested in the budget. These 
programs do not support the current level of on-the-ground 
conservation technical assistance. Hereafter, no funds shall be 
used for the Kyoto Protocol, including such Kyoto mechanisms as 
carbon emission trading schemes and the clean development 
mechanisms that are found solely in the Kyoto Protocol and 
nowhere else in the laws of the United States.''
    I mean that is what the House Appropriations Committee did 
this morning at 10 o'clock. And I do not know if the Senate Ag 
Approps is going to do that. Let me just ask you, Dr. Hofmann, 
do you think that is advisable to do that?
    Dr. Stuckey. Well, he is not in charge of that, Senator. I 
mean we already made that point.
    Senator Kerrey. I am not in charge of it either, but you 
could ask me my opinion as to whether or not I think it is a 
good idea and that is what I am asking Dr. Hofmann. Do you 
think it is a good idea?
    Dr. Stuckey. Well, I know but you are beating up on my 
scientist.
    [Laughter.]
    And that is not fair because, you know, were you here at 
the opening and I do not mean to connote that you have been but 
I am just saying he pointed out in this graph----
    Senator Kerrey. Dr. Hofmann, do you feel like you are being 
beat up on here this afternoon?
    Dr. Hofmann. No. Not at all. No. I can respond to that. I 
think if I do not--this is the first I have heard about this 
response, and if it mentions that we should not be spending 
money on research in the carbon cycle, then I would be really 
against it.
    Senator Kerrey. The language is this: The Committee does 
not include funds for global climate change, biomass products 
initiatives or the Community Federal Information Partnership as 
requested in the budget. That is House Agriculture Approps as 
of this morning.
    The Chairman. I have never been much of a fan of the 
appropriators in there.
    [Laughter.]
    Senator Kerrey. Look, we are here to have a good time and, 
we are here, as well, to try to figure out what to do. My 
observation on climate change is that after Kyoto--and I was in 
the 95--I was not absent that day--I voted in the 95 because I 
was concerned that the Administration was heading in the 
direction of essentially command and control regulatory 
structure, imposing high energy taxes that I think would have 
been enormously disruptive and not likely to solve the problem. 
But since that time we have developed a trading regimen. Since 
that time we have gotten some agreement, some indication that 
we might be able to persuade the rest of the world to go along 
with trading regimens that are much more market oriented and 
much more likely to produce a win for production agriculture.
    But Dr. Stuckey, you tell me what was the April 6th meeting 
like? Is there still skeptics out there?
    Dr. Stuckey. I was not there for the close of it but I 
suspect there is but hopefully there is better understanding. I 
mean I would comment back that, you know, whatever we do here 
in the States, this is a global problem and we can try to make 
some adjustments and so forth here in the States. If we target 
agricultural, in the whole realm of the global warming, will 
make very little difference if we do not have cooperation 
elsewhere.
    Senator Kerrey. Well, you can say that about nuclear 
weapons, and it is absolutely true, but we are the largest 
economy, the most powerful military, most capable democracy and 
the most skilled diplomats. I mean so, you know, the hand is 
dealt and we are leading. I do not mind that personally but 
that means we got to do something.
    That means we do not wait for Bangladesh to tell us what to 
do. So, it falls to the United States of America and we are 
consuming a fair amount of hydrocarbons. I am not going to put 
the hair shirt on here. I am perfectly appreciative of the 
benefits that I enjoy as the consequence of a highly productive 
economy and we have really gotten a lot of new efficiencies 
just for economic reasons. And that is really what we are 
talking about here, looking for a way to do a program that will 
enable farmers to say, this makes sense for me economically. I 
get some income off of it, and I get soil conservation, I save 
energy, I reduce my costs, this makes sense. But no-till is 
going down, is it not, Dr. Collins?
    Mr. Collins. Stable.
    Senator Kerrey. Meaning what?
    Mr. Collins. Oh, 100-million acres or so. It is stable 
throughout the last couple of years.
    Conservation tillage overall has----
    Senator Kerrey. You think it is----
    Mr. Collins. I think it is pretty stable the last few 
years. It went up dramatically for a long period of time and it 
is no longer doing that.
    Senator Kerrey. So, it is stable? I mean the word I heard 
it was actually going down. Nationwide it is approximately the 
same amount of acres it was last year and the year before?
    Mr. Collins. That is my recollection. I could be wrong but 
I do not think that there has been a major change.
    Senator Kerrey. Wow. You could be wrong.
    [Laughter.]
    Mr. Collins. I rarely submit to that but I would say about 
conservation tillage one of the important things with respect 
to climate change is that an awful lot of conservation tillage 
as practiced in this country involves tearing up the soil every 
third or fourth or fifth year and that does not sequester 
carbon. So, we have got a lot of work to do on conservation 
tillage. We are getting climate--or we are getting carbon 
sequestration benefits really on only about one-third of what 
is in conservation tillage.
    Senator Kerrey. Yes, but the idea for me is that whether it 
is the Chairmans' bill which I support or Senator Brownbeck's 
bill which I support or other conservation efforts, the ideal 
is that we begin to alter our behavior for economic reasons and 
we discover that it produces benefits for the environment as 
well, and we participate in a trading regimen, I hope, that at 
some point is implemented presuming that the majority of 
scientists who do think study this thing and have reached a 
conclusion that there is a causative relationship.
    If there is a causative relationship here, and I survive 
30-years more, I could survive to the point where somebody is 
going to say to me, you know, I know it was not very 
politically popular back in 1999 and 2000 but, my God, you 
looked at the chart and it was going up, why did you not do 
something about it? And I said, well, I did not want to ask 
anybody to change their behavior.
    I mean it seems to me that we are going to accumulate 
additional research here that leads us to the conclusion that 
this kind of effort, done for economic and for environmental 
reasons by individual farmers could become a part of an overall 
strategy that has us saying that whether it is just for the 
United States or worldwide--and I fully acknowledge, you know, 
we got to get India, we got to get China, we got to get the 
rest of the world participating--that we are going to be part 
of a solution that produces income as well as benefits for us 
locally to a larger problem.
    You are back for more friendly questions, Mr. Chairman.
    [Laughter.]
    The Chairman. No. I think you made a good point. And the 
point that I was trying to make before is that I went down to 
the South Pole in 1998 and first met Dr. Hofmann. And it was as 
a result of meeting with him and listening to him and seeing 
the evidence from the ice cores that I changed my mind. Up to 
that point, I had indicated my public position was, in regards 
to Kyoto and to agriculture, was that we, you know, it should 
be demonstrated that we have a very clearly defined problem. 
There is no question in my mind over the last several decades 
we have had an aberration in regards to global warming. The 
temperatures have increased. And there is no question in my 
mind that if it continues for the next decade or two that we 
are going to experience a lot of big-time problems in regards 
to the ability of our producers to produce enough food for this 
country and a very troubled and hungry world.
    So, we have to change in terms of behavior. I think the 
Senator is exactly right. How we change? It seems to me we 
could do it a lot better with carrots than by embracing an 
idea--and I, you know, have taken a hard look at all the 
emission trading schemes and that is about the best word for 
it--and people who have an agenda who think it is the right to 
do simply because they think it is the right thing to do. It 
has to make sense in regards to economics.
    And what Dr. Hofmann did point out to me was that over 50-
years time you could either do it the regulatory process or you 
can do it through things like the planning that we hope to 
achieve to change best management practices because of the five 
wins that we are involved in.
    And, so, I came back and I was trying to tell agriculture, 
hey, you cannot sit back on the sidelines any more, we can be 
partners in this effort and by being partners in the effort I 
think we can really achieve something. And that is what we are 
trying to do. We are trying to get all the agencies involved, 
the best science involved, and all the producers involved who 
want to do the right thing. After all it is their land, it is 
their wherewithal, it is their future. And I think we can get 
this done, but I do not think we can get it done with an agenda 
that simply is an agenda from the standpoint of using--I mean 
we all know what the design is of the treaty. You are supposed 
to go back to 1990 energy levels. That is not right, it is not 
possible. Minus 7-percent by the way.
    Now, of course, that has been, you know, debated I guess 
back and forth but it was Dr. Hofmann who pointed out to me and 
I tried to put him on the griddle a little bit, you know, 
before, I said is this accurate on the 50-years? And at the end 
of 50-years, you know, where are we with the regulatory scheme? 
And he said, basically he does not know because we do not know.
    The reason that we do not know is that we have not really 
committed enough funds like he did in 1990-to-1992 to say that 
the North American continent took more or at least as much 
carbon out of the atmosphere than we put in, in regards to 
fossil fuel emission. That has not been stated to America. When 
I say that before farm groups, even the ones that are 
interested in this, they do not realize that. I think that is 
an amazing fact and that we ought to find out why? And when we 
say why, we do not have the research or the capability to 
determine why.
    So, if, you know, if that is a fact and it was at that 
particular time, we have got to find out on a regional basis 
why this is happening. Once you figure out why it is happening, 
we can address what on earth it is that we are going to do. And 
that was the position by Dr. Hofmann. He changed my mind on 
this entirely, that is why we are having the panel.
    That was what I was trying to say.
    Senator Kerrey. Oh, I can understand that now.
    The Chairman. OK.
    [Laughter.]
    Senator Kerrey. Dr. Collins, let me ask you----
    The Chairman. Here is the chart by the way if you want to 
look at that.
    Senator Kerrey. What would you, in terms of incentives, as 
an economist, for farmers--and one of the most important things 
as I have tried to figure out what to do is that we are doing 
this work on private land. I mean whether it is conservation 
work or whatever, it is private land. So, you are trying to 
provide, it seems to me an incentive of some kind, for best 
management practices. And I wonder if you have an opinion on 
whether or not tax credit or direct payments or other 
mechanisms that you have thought of we ought to be looking at 
to accomplish that objective?
    Mr. Collins. Well, what you want here is a demand for 
carbon. Where is it going to come from? In one instance, it 
could come from people being altruistic or speculative like the 
Canadian utilities that are coming in and presumably buying 
carbon in Iowa. So, that is one form in which farmers are 
responding to undertake best management practices in response 
to a private sector determined incentive.
    A second way of generating the demand would be for the 
Government to look at carbon the way it looks at erosion, you 
know, as a market failure. There is an externality. There is a 
public good aspect to going out and using taxpayer dollars to 
provide an incentive payment to reduce greenhouse gas 
emissions.
    In that case, the Chairman's win to the N'th power, you 
would bring carbon sequestration together with the other kinds 
of environmental benefits that are highly connected and 
correlated and intertwined with carbon sequestration like water 
quality, air quality, soil quality and you would put that all 
into one program.
    I mean on a very naive level you can see something like 
what we do with the conservation reserve program. We have an 
environmental benefits index. We weigh a bunch of factors. We 
give them a score. And then the highest score relative to the 
bid price on the land, we take into the program and pay $50 a 
month for 10- or 15-years.
    You could think of adding, a carbon sequestration dimension 
to the environmental benefits index. I mean that is one simple 
thing, if that was the social value.
    Other things, we do other things in our EQUIP program. We 
have talked here a lot about carbon sequestration. The other 
side of this is greenhouse gas emissions. Agriculture is not an 
insignificant emitter. We emit 7-percent of the total annual 
emissions in the U.S. They are all methane and nitrous oxide. 
Under the EQUIP program, for example, we have nutrient 
management plans. Nutrient management plans can effectively 
reduce nitrous oxide emissions.
    So, you could conceive of putting more money into the EQUIP 
program in some of the activities that are funded in that that 
would reduce emissions or sequester carbon.
    Beyond that then you are talking about different kinds of 
tools that we have not really looked at very much.
    Senator Kerrey. Can I ask you, in general, though is it 
more efficient to put direct payments out as opposed to using 
tax credits?
    Mr. Collins. I do not know that there is a great 
difference.
    Senator Kerrey. I admit to a slight prejudice just from the 
standpoint of the complexity of the Tax Code. But I am thinking 
of situations where somebody says I am not eligible because I 
do not have a sufficient amount of income or my accountant did 
not figure it out. But from an economist's standpoint you are 
saying, you seem to be saying that there is no real difference 
between the two?
    Mr. Collins. I do not think there is a great difference 
between the two. What economists look at is the cost of using 
tax dollars to do something and whether it is tax dollars 
because we are giving up less revenue to the Treasury or 
whether it is tax dollars because USDA's appropriation is going 
up, I do not know that it makes that much difference in terms 
of efficiency losses to our economy.
    Senator Kerrey. Well, it is a shame that we cannot get a 
bit more comprehensive approach to this, not just on the 
Executive Branch but often on our side. I mean I guess it was 
last year or the year before last we were about that close to 
getting the Endangered Species Act reauthorized and though it 
may not seem directly related, it ends up being very much 
related because we were trying and had at least up until the 
bill got pulled, language in there that would have allowed the 
ESA to be administered inside the context of a State 
conservation plan.
    Oftentimes states. I know that Kansas and Nebraska and Iowa 
and I suspect South Dakota does as well, invest a fair amount 
of money, State dollars as well as local dollars, in 
conservation efforts and they will have a conservation plan. 
One of the ways that I think that you can get the skepticism 
out of the minds of individuals that are addressing this 
climate change problem is to bring the problem solving more and 
more back down to the local level. Some of the things you were 
saying in there about the CRP, especially, I hear more--and I 
am not sure that is what you were saying--but I hear more top-
down Federal regulations and the more it can be incorporated 
into State conservation plans and the more people can feel like 
they are part of it, whether it is a local conservation 
district or in our State, resource districts, the more likely 
it is, it seems to me, that the skepticism comes out of it 
because then they say, you are going to let me decide what best 
management practices are. You tell me what the goal is, what 
your carbon goals are, what your water quality goals are, what 
your soil conservation goals are, and let me be one of the 
little entrepreneurs out here that figures out how best to 
accomplish it. It is more likely that we will have that kind 
of, I think, constructive flexibility as opposed to me saying 
flexibility means I just do not want to do it.
    Mr. Collins. I think that is a good observation and I would 
say with respect to the conservation reserve program we have 
moved a step in that direction with our State conservation 
reserve enhancement programs, where the states are offering up 
25-percent of the incentive payments we are making producers 
and we are letting the States decide what the conservation 
priorities are in implementing those plans. And it is not 
inconceivable that a State could decide that carbon 
sequestration is an issue that they want to deal with in a 
conservation reserve enhancement program.
    Senator Kerrey. Thank you.
    The Chairman. I want to thank all the panelists. We have 
had a very----
    Senator Kerrey. Especially Dr. Hofmann.
    [Laughter.]
    The Chairman. Maybe we should both go down to the South 
Pole, it is cold down there, and see Dr. Hofmann again.
    [Laughter.]
    I will share a cup of coffee with you.
    [Laughter.]
    Senator Kerrey. Do you want me to go first?
    [Laughter.]
    The Chairman. We would like now to welcome the second 
panel. I am going to make a suggestion that panel three simply 
come up as well. We have four chairs here. So, that is going to 
be Dr. Charles W. Rice, who is the Soil Microbiology Professor 
at Kansas State University; John M. Kimble, who is the Research 
Soil Scientist at the United States Department of Agriculture, 
in Lincoln; and William Richards, the former Chief of the Soil 
Conservation Service, who now resides in Circleville, Ohio; and 
an old-time friend of mine, John Haas, from Larned, Kansas.
    Dr. Rice, will you, please, proceed and let me advise the 
witnesses, we have a vote at 5 o'clock but I would hope that 
maybe we could certainly conclude by that time.
    So, if you could keep your remarks within the 5-minute time 
period we would appreciate it.
    Please, proceed, Dr. Rice.

  STATEMENT OF CHARLES W. RICE, SOIL MICROBIOLOGY PROFESSOR, 
  KANSAS STATE UNIVERSITY, DEPARTMENT OF AGRONOMY, MANHATTAN, 
                             KANSAS

    Dr. Rice. Thank you, Mr. Chairman, members of the Senate 
Subcommittee. I am Dr. Chuck Rice, Professor of Soil 
Microbiology in the Department of Agronomy at Kansas State 
University. I am also a member of the Soil Science Society of 
America and a Fellow of the American Society of Agronomy. I 
personally have been involved or became involved in soil 
organic matter and carbon research, and no-tillage research 
during my Ph.D. training starting in 1980.
    I am pleased to be invited to testify on the role of 
agriculture soils in carbon cycling and mitigating greenhouse 
gases.
    As was noted earlier, since the late 1800s, carbon dioxide 
has been increasing in the atmosphere at an extremely rapid 
rate and with much of this increase in the last 50-years or so 
due to the burning of fossil fuels. Ultimately we need to 
reduce our carbon emissions into the atmosphere, however, also, 
as mentioned earlier, it is going to take time to develop 
energy technologies and make them economically feasible. Plants 
and soils can buy us some of that time.
    Recent models suggest that plants and soils can reduce the 
increase of atmospheric CO<INF>2</INF>. How does this occur? 
Carbon sequestration by soils occurs primarily through the 
plants first. Plants convert the carbon dioxide into the plant 
tissue through photosynthesis, and then as those plants 
decompose, primarily by soil microorganisms, some of that 
carbon is turned into soil organic matter or humus. This humus 
can persist in soils on the order of hundreds to thousands of 
years, so, therefore, it represents a long term storage.
    The estimated amount of carbon stored in the world's soils 
is about twice that in the plant vegetation, itself, or in the 
atmosphere. Hence, even a relatively small change in the soil 
carbon storage can represent a big impact on the carbon 
balance, the global carbon balance.
    Agriculture has always played a key role in carbon cycling. 
Much of the central U.S. and Canada that is now producing our 
abundant food supply, as you know, was once a vast prairie. And 
these carbon-rich soils have their carbon levels due depleted 
or reduced to plowing and soil erosion. They have been reduced 
by about 50-percent.
    However, this loss of soil carbon can be reversed and 
modern agriculture now represents the potential for storage of 
carbon in the soil. We now have and we need to develop 
technologies and information needed to conserve carbon that is 
put into the soil. I have provided a list in the written 
testimony of carbon conserving practices, but just some 
examples include conservation tillage or no-tillage, proper 
fertilizer management, elimination of summer fallow--that is 
important in the Great Plains, Colorado, Nebraska and Kansas--
crop selection, including perennial crops, and vegetative 
buffer strips.
    I would like to use no-till as one example. Research at 
Kansas State University and other land-grant universities have 
shown that no-tillage can sequester an average of a 10th to two 
10ths of a ton-per-acre-per-year. What does that mean? In 
Kansas, if we had a million-acres converted over to no-till, 
that would be storing enough carbon equivalent to burning of 
85-million gallons of gasoline each year.
    Another example, elimination of summer fallow would have 
similar gains in Western Kansas and the Great Plains.
    Range lands is often forgotten and it also absorbs carbon. 
Some of the research by Dr. Clinton Owensby and myself has 
shown that carbon under elevated CO<INF>2</INF> is increased, 
soil carbon is increased on the order of 2-tons-per-acre over 
an 8-year period.
    Economic analysis suggests that soil carbon sequestration 
is among the most beneficial and cost-effective options 
available for reducing greenhouse gases, particularly over the 
next 30- to 50-years until we build up or develop those 
alternative energy sources.
    At Kansas State University we have a team of research and 
extension faculty to conduct basic and applied research on 
agricultural practices to sequester soil carbon. Also as part 
of our mission, since we are a land grant university, our 
desire is to extend that information to the land managers and 
policy makers in Kansas.
    In addition, Kansas State research and extension team has 
joined up with a national Consortium for Agricultural Practices 
to Mitigate Greenhouse Gases pronounced ``casms.''
    This consortium includes eight land grant universities and 
a Department of Energy laboratory as well. This CASMGS team is 
made up of internationally recognized researchers and 
institutions in the field of carbon dynamics, soil erosion, 
greenhouse gases, agricultural resource economics and 
integrated assessments.
    If you permit, the overall goal of CASMGS is to provide the 
tools and information needed to successfully implement the soil 
carbon sequestration programs so that we may lower the 
accumulation of greenhouse gases in the atmosphere, while 
providing income and incentives to producers in improving soil 
quality.
    To achieve this goal, we need to further conduct basic and 
applied research, develop the models for assessment, and 
provide economic analysis for a better understanding in 
adoption of carbon sequestration practices. And then we need to 
take this information and provide the education and 
demonstrations for the producers to adopt that technology.
    I also would like to remind the Committee that in addition 
to reducing carbon in the air, many of these practices have 
other benefits and I will just quickly mention four here.
    One is that by increasing soil carbon restores and sustains 
our natural resource base which part of this country was 
founded upon. Second, increasing soil carbon improves the soil 
quality including the biodiversity of the soil, soil 
microorganisms, and the chemical and physical properties of the 
soil. Many of these practices that increase soil carbon also 
improve water and air quality.
    Finally, agriculture soils become more productive, often 
with fewer inputs and, thus, increase the profitability for the 
producer. Thus, my four wins is for agriculture, the 
environment, the U.S. citizen and the producer.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Rice can be found in the 
appendix on page 74.]
    The Chairman. Thank you.
    Dr. Kimble, please proceed.

  STATEMENT OF JOHN M. KIMBLE, RESEARCH SOIL SCIENTIST, U.S. 
          DEPARTMENT OF AGRICULTURE, LINCOLN, NEBRASKA

    Dr. Kimble. Mr. Chairman, members of the Subcommittee, I am 
a Research Soil Scientist at NRCS in Lincoln, Nebraska, and it 
is a pleasure to appear before you to discuss the issues of 
carbon cycle research and the role of agriculture in helping to 
mitigate the greenhouse gases. For the last 10-years I have 
worked with issues related to soil organic carbon and the role 
that agriculture can play in sequestration of carbon in the 
soil.
    There is a strong linkage of the carbon cycle to the 
nitrogen and phosphorus cycles and all three need to be 
considered together. Many of the problems we have with animal 
wastes are related to phosphorus and nitrogen, yet, the organic 
matter in the waste is needed for building soil carbon. In 
addition, both nitrogen and phosphorus are required for 
photosynthesis.
    We also need to consider the emissions of methane and where 
this fits in the overall carbon cycle. Methane is produced by 
ruminant livestock during feed digestion, in wetlands, rice 
paddies, and animal waste storage facilities.
    We know that soils can sequester carbon. The average 
sequestration potential for cropland is about 8-percent of the 
total annual U.S. emissions and for grazing lands about 5-
percent of annual U.S. emissions. So, it is a very large 
amount.
    Sequestration can significantly reduce atmospheric 
CO<INF>2</INF> and at the same time improve soil quality. We 
have heard this many times, the win-wins. The increased carbon 
leads to improved soil fertility--maybe I will get more than 
four--reduce soil erosion, restoration of degraded lands, 
improve water quality and improve wildlife habitat. This is a 
win-win scenario----
    [Laughter.]
    I will lose my thought here--to agriculture as well as to 
society in general. I think the major benefit is society in 
general. So, that is one of the major winners is society.
    The knowledge gaps that have been identified which require 
future research are the development of global data bases, 
information exchange, we need to understand wetland processes 
better, carbon sequestration in the subsoil, soil erosion and 
carbon dynamics--what happens to it when we erode it, do we 
lose it or not--plant nutrients and their interactions with 
soil carbon, soil structure, soil quality. We need to improve 
our methods for soil organic matter assessment. We need to 
understand tropical ecosystems, and frozen soils, what happens 
to them if we have warming.
    Assessment of the value of carbon per ton needs to be 
determined and we need to look at policy options to encourage 
farmers and land managers to adopt recommended management 
practices. We know the value of conservation tillage but still 
need to look at the potential benefits of different types of 
tillage systems from simple no-till to the less more 
conventional strip tillage in some of these and different agro-
ecological zones with different crops and different crop 
rotations on different soils. This research requires long-time 
experiments.
    CRP has helped to improve highly erodible soils but the 
question is, have we gotten the maximum benefit from these 
lands? Do we need some sort of management to improve their 
rates of sequestration. Research is needed to determine how 
fertility testing information can be used to help us understand 
changes in soil carbon levels. We take over 2-million samples a 
year for this, yet, we are not using these numbers right now to 
relate to soil carbon changes.
    Research is needed to determine why practices that are 
shown to work to increase carbon sequestration are not being 
adopted. Integrated research is needed to ascertain the value 
of soil carbon in terms of the effect on production and on 
other societal values, some of the material that Keith Collins 
mentioned. What is the cost-benefit of carbon sequestration?
    How can we use remote sensing to observe land use changes, 
to improve management practices, and to enhance carbon 
sequestration? We need to see the effects of irrigation on 
carbon sequestration since irrigation is being used more and 
more and can affect both soil organic carbon and soil inorganic 
carbon.
    We need to look at the effects of bioenergy on soil carbon 
and the crops grown and how they affect the carbon. We need 
research to look at crops that maintain or have increased 
yields but at the same time increase the amount of below-ground 
biomass or changing the lignin content so the carbon stays 
around longer.
    We need to improve our ability to monitor and verify carbon 
stocks using direct measurements coupled with process models 
that will allow us to scale point data to field and whole farms 
and eventually to larger geographic regions.
    The future understanding of the global carbon cycle depends 
on the development and implementation of a research program 
that is interdisciplinary. It must link policy makers to soil 
scientists, agronomists, economists, plant breeders and other 
scientists. We have worked alone many times, we need to work 
together.
    We need to take the research from the laboratory and 
experimental fields to whole-farm operations and see how we do 
it on them.
    Mr. Chairman, that completes my statement.
    [The prepared statement of Dr. Kimble can be found in the 
appendix on page 83.]
    The Chairman. Thank you very much, Dr. Kimble.
    Mr. Richards.

 STATEMENT OF WILLIAM RICHARDS, FARMER AND FORMER CHIEF OF THE 
          SOIL CONSERVATION SERVICE, CIRCLEVILLE, OHIO

    Mr. Richards. Thank you, Mr. Chairman and members of the 
Committee for the opportunity to testify. I am going to read 
the short version and submit the balance for your consideration 
and remarks.
    I will focus on how conservation tillage will sequester 
carbon, and may be the best solution, surely the easiest 
solution, to our CO<INF>2</INF> concerns.
    I am Bill Richards, a farmer from Ohio, representing myself 
and our family farm. I bring the experience of 45-years of 
conservation farming and two-and-a-half years as Chief of the 
Soil Conservation Service, and the two of you will readily 
remember that I was on the hot seat at the height of the 1985 
farm bill implementation.
    Conservation tillage or no-till or what was best described 
as direct seeding has really been my life. We have land that 
has not been plowed for 40-years and we have been complete no-
till for more than 20. Our soil quality is improving each year. 
Every spring planting gets easier and easier. We are using the 
same planters for the last 25-years, so, we know that it is 
getting easier. Direct seeding has really kept our farm 
competitive, expanding and profitable, all these years. It also 
sent me to Washington when Secretary Yeutter wanted a farmer to 
address the producer hostilities from the erosion requirements 
of the 1985 farm bill.
    My background in no-till and direct seeding and with the 
help of the chemical and machinery industries, the farm press 
and other USDA agencies, we were able to sell conservation 
tillage as the best practice to meet the erosion requirements. 
And for the most part, we were successful. Erosion dropped to 
sustainable levels in many regions of the country and 
conservation tillage peaked out at roughly 40-percent of 
planted acres, then things changed.
    The agenda switched from the real measurable problem of 
soil erosion to the perceived of herbicide dependence. 
Conservation tillage has levelled out nationally. It is gaining 
in cotton, wheat, and soybeans but losing in the corn belt, 
especially in highly erodible Iowa.
    The U.S. is unlike our competitors, Canada, Argentina and 
Brazil, who have all passed us in the percent of cropland 
direct seeded. I am concerned as one of those who started this 
conservation tillage revolution that we have unleashed a 
monster because around the world millions of acres of new lands 
are coming into production that would be too fragile or 
unprofitable without conservation tillage.
    I feel and hope that future conservation programs will be 
separate, voluntary and incentive based. I hope that we have 
learned our lessons on cross compliance. From my experience as 
a farmer and past SCS Chief, I am convinced that we get 
conservation on the land and behavioral change with incentives 
and education not requirements and regulations.
    We have always known and understood the immediate fuel, 
labor and machine savings of conservation tillage. We also 
captured the management opportunity of spreading our talent 
over more and more acres. Then come the erosion and 
conservation benefits that become political after the 1985 farm 
bill. But only recently have we understood the long-term soil 
quality, water quality, and wildlife benefits accruing from 
continuous direct seeding.
    The opportunity to increase organic matter, that is soil 
carbon, will first increase productivity or land value, and 
second, sequester carbon for a world concerned with climate 
change from greenhouse gases.
    The Ag Research Service has found that as much as 1- to 2-
percent organic matter increase in 10- to 20-years of 
continuous no-till. It has been said earlier. The bad news is 
that we have tilled away or eroded 50-percent of the organic 
matter from our soils in the last 100-years. But the good news 
is that we have the technology, the machinery and science to 
put it back.
    Others gave a lot of statistics. I will just skip to the 
point that we should encourage our farmers and ranchers to do 
whatever is recommended to achieve these potentials. I feel 
that science has documented the increase in CO<INF>2</INF> in 
the atmosphere. I do not feel we know why or if man has 
anything to do with it, however, if the world is going to throw 
money at global climate change, then agriculture could, can and 
should earn some of that money and I might say, we will put it 
to good use.
    I hope that in the near future we will have the opportunity 
to put in place a comprehensive conservation incentive program 
to reward producers for stewardship. We offer a solution to the 
global climate change, greenhouse gas problems that is a win-
win for all concerned.
    Whether the problems are real or perceived, public funding 
for increased organic matter, improve soil quality, better 
water quality, less erosion, all leading to higher 
productivity, is a good investment for our people, and the 
whole world.
    A conservation bill would focus agriculture's importance to 
the environment. A conservation bill would move money to the 
countryside at a time when it is badly needed. But more 
importantly, help production agriculture address the concerns 
of the environmental community and avoid the temptation to 
regulate.
    If we could get in place a freedom to conserve with a good 
insurance package we could avoid the temptation many have to 
change freedom to farm. I hope we give it time. It has our 
foreign competition worried and we producers enjoy the freedom 
to manage and compete.
    Enforcement of the Clean Air Act is starting and carbon 
will be valuable. I am told $20 per ton is a reasonable price. 
The EPA and most environmentalists favor carbon trading so 
industry, especially utilities, will finance the carbon 
reduction. I think the issue for agriculture producers is 
whether we trade our payments, our carbon sequestering 
potential on the market or do we get our rewards through 
stewardship payments?
    I am out of time and I thank you.
    [The prepared statement of Mr. Richards can be found in the 
appendix on page 89.]
    The Chairman. Bill, you made sense in 1985 and I think you 
made a great deal of sense then and I appreciate you coming and 
I appreciate your perspective from an individual producer but 
more especially from your experience as the head of SCS, which 
I still call it, by the way, SCS.
    Mr. Richards. Me, too.
    The Chairman. John.

       STATEMENT OF JOHN C. HAAS, FARMER, LARNED, KANSAS

    Mr. Haas. Mr. Chairman, Senator Kerrey, it is a pleasure to 
be here and appear before you this afternoon.
    My name is John Haas and I live in Larned, Kansas. I am a 
non-irrigator farmer and I am probably a true family farmer. We 
farm about 4,000-acres, of which my wife and my daughter-in-law 
provide the combine help in the summer time. I do about 90-
percent of the rest of the work.
    We basically are 100-percent no-till operation. Have been 
for a number of years. Started into it about 1979, 1980. Some 
of the things that I see that have affected it--and I think 
there are a lot of wins, and I do not think that we can even go 
about numbering them all--but I will tell you what, as long as 
we can go 11 and 0, that is the kind of wins that we like to go 
with.
    You know, one of the things that has happened----
    The Chairman. It is a shame we did not go 12 and 0 
``referring to K-State football.''
    [Laughter.]
    Mr. Haas. It is very difficult with Senator Kerrey there to 
talk about that. You know, having watched and participated in 
this type of thing NP. It is very interesting to me to see what 
has happened to the soil. Our soil today is in better shape 
under no-till than it has ever been since we probably broke it 
out.
    It has a better ability to absorb moisture. We just 
recently have been blessed with abundant rains in my area and 
it was interesting to me to observe what was happening to those 
soil, those fields that had been no-tilled and those that had 
been tilled. And we see a great difference in the runoff and 
the percolation of the water and how that affects the soils, 
themselves, but in turn, it will affect the crops down the 
line.
    With the Freedom to Farm Act in 1996, it allowed our farm 
to go from a wheat, milo farm, to now we grow wheat, milo, 
alfalfa, corn, soybeans, canola, and sunflowers. We are in an 
area that we get about 23-inches-of-rain. We get enough rain to 
raise a crop if we can hold that moisture where it falls for 
the times when we need it. And the only way that I can see that 
we can do that is under a no-till situation.
    Earlier somebody talked about how do we increase the amount 
of organic matter on the soil to be able to not only take up 
that carbon but to also decrease wind erosion, water erosion, 
and those type of things? Well, in no-till I found the answer 
to it, and it is another one of those wins.
    It is raising crops. As we raise more productive crops, we 
have more organic matter left on that soil, and that becomes 
one of the things that we have to deal with in planting. It is 
hard to plant no-till into 100 bushel-an-acre wheat stubble 
that has been left. But it is possible.
    I think one of the biggest draw backs I see in fact of 
getting farmers involved in the no-till conservation type 
tillage, is that it takes more management. You have to be more 
timely. It is more difficult. You are dealing with things that 
you have never had to deal with, and most of them are up here 
in your head. Because, you know, my grandfather and my father 
farmed in a clean tillage type of situation, why should I 
change.
    It is very difficult for me, having grown up under that 
kind of an atmosphere, to be able to go back and lay the fields 
in what would look like a very terrible situation, only there 
is nothing growing there, and to me they are beautiful. But let 
me assure you, your neighbors will not tell you that. And there 
is a psychological problem definitely in no-till circumstance.
    The question that came up earlier today is how would we go 
about paying for this. Do we give tax credits or do we look at 
dollars? I would like to address that in the fact that if you 
want the farmers to participate I think that you look at the 
direct dollars not in the tax consequences. Farmers will do 
things for dollars.
    I think this carbon sequestration is real. I think we have 
the ability to solve some of that and help not only our country 
but the world in general. I think farmers are historically the 
original environmentalists. They are dealing with their 
livelihood on that piece of ground that they farm. And no 
matter what people say they are dealing with what is going to 
happen to them, and their generations in the future. And I 
think, you know, as I look back and see some of the things that 
have happened, we have increased our wildlife habitat with no-
till. Today, we have got tremendous quantities of deer, wild 
turkey, bobcats, quail, pheasants we did not use to have 30- or 
40-years ago.
    We are doing a lot of things in the country, I do not 
believe, that people in general really understand and see what 
is going on out in the country. I think that the opportunity 
that you have presented to me to be able to come and present 
some of this to you--I have varied a little bit from my written 
testimony but I know that that will be in the record--and it is 
a privilege to be here. I want to tell you that it is possible.
    We do need leadership from Washington in part of it, but 
another way to look at how do we get the farmers to participate 
in this program, and I think it is very, very important, is the 
fact that we must involve our land grant universities and our 
cooperative extension services, because let us look at the GMO 
situation today. That came through private enterprise. Farmers 
bought into it and now we are starting to look at that and 
question that because of the adverse publicity that is out 
there.
    The land grant system and cooperative extension has the 
reliability that we, as producers, will look and we like that. 
And, so, I just really encourage you that as this research 
comes about that we do not put it in different areas but that 
we keep it in the USDA and channel that through our land grant 
system and get that message out to the farmers through the 
extension service.
    There is not another agency up here that has the ability to 
get to the people that the extension service does and I use 
them greatly.
    Thank you very much for your time. I appreciate it.
    [The prepared statement of Mr. Haas can be found in the 
appendix on page 95.]
    The Chairman. OK. We thank you, John.
    Dr. Rice, as you indicated while Kansas State is part of a 
consortium, who makes up that consortium now?
    Dr. Rice. The consortium is made up of 8 land grant 
universities, including Colorado State, Iowa State, Kansas 
State, of course, Michigan State, Montana State, Ohio State, 
Texas A&M and University of Nebraska and the Pacific Northwest 
National Laboratory.
    The Chairman. That is called CASMGS?
    Dr. Rice. Yes, Sir.
    The Chairman. CASMGS?
    Dr. Rice. Hmm-hmm.
    The Chairman. And the ``G'' is silent, obviously.
    Dr. Rice. Yes.
    The Chairman. Now, did the USDA provide grants or other 
funding to the group?
    Dr. Rice. To the group, no. We have an initial 
appropriation from EPA that was originally for $350,000. That 
got cut to $332,000 for this year. Individual researchers have 
some competitive grants for USDA but not as a group.
    The Chairman. But what funding would you need for next year 
and if that is forthcoming, how would it be spent?
    Dr. Rice. The proposal that the group has put together is 
around $10 million a year, and that will be used for continuing 
the applied research, to develop the inventories for greenhouse 
gases, the economic analysis to help both the producers and 
inform the policy makers.
    The Chairman. John just indicated that it would be 
absolutely essential to work with through the extension service 
and our land grant universities. What is Kansas State doing to 
assist producers?
    Dr. Rice. Mr. Chairman, we are fortunate at Kansas State 
that we have a good research extension team. We have just 
produced a no-till handbook as an example. And 7,500 copies 
were produced and I think we are running out. So, we are 
looking at a second version or even maybe putting it on the 
Web. We have an extensive network of field sites that provide 
opportunities for field days. County agent training, I have 
helped train county agents that, of course, outreach then to 
the individual producer.
    Even my time Committment has been increased in the last 
several months here communicating to government agencies, 
nongovernmental agencies around the State.
    The Chairman. Dr. Kimble, you have got a book out that you 
helped edit, ``The Potential of U.S. Cropland to Sequester 
Carbon and to Mitigate the Greenhouse Effect'' and you made the 
point that bio-fuels could help sequester anywhere from 35- to 
63-million-metric-tons-of-carbon per year. Explain to me how 
bio-fuels relate to carbon sequestration.
    Dr. Kimble. You get two benefits from the bio-fuels. One is 
you are offsetting the use of nonrenewable resources by doing 
this but bio-fuels, switch grass, rapidly growing willow trees 
or whatever, also have an extensive root system. You are taking 
nonproductive land, maybe highly eroded land, and putting it 
into productive use. So, your putting a lot more carbon into 
the ground by using, growing these crops.
    So, you are getting the benefit of, you know, replacing 
nonrenewable resources and you are also getting the benefit of 
increasing the soil carbon by increasing the amount of carbon 
input into the ground. It is not just removing the bio-fuels 
where they make them into ethanol or other fuels but it is also 
the carbon into the ground.
    The Chairman. You have got some testimony about remote 
sensing and that really got my attention. We have a group of 
researchers at the University of Kansas and that is the remote 
sensing center for the region in regards to NASA.
    Last year, let me point out, that these researchers 
developed a remote sensing model that was 95-percent accurate 
in predicting the Iowa corn harvest--I am sorry that Senator 
Bradley had to leave--by 2-months in advance of the actual 
harvest. The USDA did not get their final numbers until after 
harvest, obviously. So, my question to you is how important us 
remote sensing to your research and do you foresee remote 
sensing being a bigger part of yours and others in regard to 
soil science?
    Dr. Kimble. Yes. Remote sensing is a very important tool. 
We can look at land use change and we can see how much areas 
are going into no-till, are we having an increase or decrease 
in conservation tillage. We use it in NRCS--which you call, 
SCS, which I do, too, but I am not supposed to; I work for them 
so I have more restraints, I guess--but we use it in our 
mapping to develop the data bases.
    The Chairman. You should hear what farmers call them. Go 
ahead.
    [Laughter.]
    Dr. Kimble. Remote sensing is, you know, it is how we 
gather a lot of our data to go into the data bases we need. It 
is a very important tool. It can help us look at drought. You 
know, predict when we may have droughts, looking at, you know, 
they are developing sensors with NASA to look at moisture in 
the ground so we can get earlier predictions of what is going 
on. It is, to me, it is part of the future.
    If I go onto a farm I can look at a small area but with 
remote sensing I can integrate over a whole watershed which we 
have to do. So, to me, it is a really powerful tool that we 
need to keep using and increasing its use of.
    The Chairman. Bill, tell me, you made the comment that farm 
land values increase as the level of organic materials like 
carbon in the soil increases and that crop yields increase. Do 
you have any tangible numbers there or, you know, just a guess?
    Mr. Richards. Just by looking at farm sales and looking at 
values around me, when that organic matter goes up, in other 
words, between a Brookston soil, which is our best, and a 
Crosby, there is about a 2-percent difference. Now, there are 
other things there, but that is a good $500 or more.
    You can also come at it the other way that 2-percent 
organic matter would probably add about 20-bushels-an-acre to 
that corn yield, at $2 a bushel, 8-percent, that comes back to 
that $500. So, it is for real.
    The Chairman. It is significant.
    How would you compare information transmitted from the 
Department of Agriculture versus the Conservation Technology 
Information Center and Extension, etc., and here is the obvious 
question: Would a more consolidated approach to information 
transmission be useful to you as a producer?
    Mr. Richards. Well, as a producer, I did not realize there 
was a problem NRCS and USDA does the measuring, CTIC merely 
reports those figures. I should say I am on the CTIC Board but, 
you know, to me it is a good example of public/private 
partnership. And we hope it is working.
    The Chairman. John, you have been a good friend to Kansas 
State, obviously, down through the years and a key member of 
something called the Council for Agricultural Research 
Extension and Teaching--that is CARET--over the years. And you 
have also been a participant in the University's test plots for 
canola for that research and then through your own personal 
experience the question is, should the University and other 
land grant institutions be involved in this research? Why 
should producers take a proactive role in assisting this 
research?
    This is a softball question to you, but go ahead.
    Mr. Haas. Oh, yeah. That has an easy answer to it. I really 
enjoy having demonstration plots and test plots on our farm 
because when those plots are there then I can see what they are 
doing under my conditions. Right now, we have the canola 
breeder at Kansas State, Charlie Rife who has an experimental 
plot there on the farm. Last year, we had a little over 10-
percent of the State's canola growing on our farm.
    Unfortunately, it was destroyed in a hail storm just prior 
to harvest. But I think what it shows is possible as people go 
by----
    The Chairman. Well, you will benefit a lot more once we 
pass the Kerrey-Roberts crop protection amendment.
    Mr. Haas. I am looking forward to it.
    [Laughter.]
    Mr. Haas. But, you know, there is nothing better to draw 
farmer's attention than to see some, farmer out there doing 
something different that nobody else not doing, and then they 
start watching that. And you just hope that if it is good that 
it is on the popular road and if it is bad, it is on the back 
40.
    But the University really puts its best foot forward when 
they come out and evaluate. Next month or at the end of this 
month, I guess the 24th of May, Charlie is going to come out 
and we are going to have a field day at that canola plot. We 
are going to talk about the different variety that he has 
planted. What he sees in the future for canola. I am sure that 
we will have a great participation from the area.
    There is a lot of trust in the land grant system in 
production agriculture. We look to the extension service for 
information. That is nonbiased information. A lot of times if 
we get it out of private industry, there is a reason for what 
we are getting. But the University works very hard at having 
nonbiased information and we appreciate that and it is very 
valuable to us.
    The Chairman. Now, just quickly for a final comment. Would 
you go down your cropping pattern changes again and this is 
just for the benefit of Senator Kerrey and others, in that 
Kansas used to be known as sort of a mono-agriculture State, 
more especially in the old big first district, now 66-counties. 
Very similar to the district represented by Bill Barrett. And 
that has changed absolutely dramatically.
    And you went down a list on your farm. You want to do that 
again?
    Mr. Haas. Sure, I would be very happy to. We historically 
were a wheat farm. And in the 1950s milo was brought in to it 
and then when we saw the hybrids come, we were split somewhat 
between 50-percent wheat, 50-percent milo. Well, really, a 
third wheat, a third milo, third fallow.
    Today, because of the ability that we have to pick those 
crops that we see have the best economic return and through no-
till having the moisture available to grow some of these crops, 
today wheat has become a minor crop for us. We grow alfalfa, 
corn, soybeans, sunflowers, and canola. And if there was 
something else, I would try it, too.
    But I will tell you what, our economic stability has become 
very solid in the adaptation to the different crops versus one 
or two. I do not worry about one particular market. I do not 
worry about one particular hail storm.
    You know, last year we lost 50-percent of our wheat to a 
hail storm but, yet, we had a very good year. Now, that is 
adding into the government payments and so forth that came from 
Washington. And let me assure you that economically in 
production agriculture if those payments were not there, it 
would have been a disastrous year across-the-board in 
agriculture.
    The Chairman. You can move a little south and a little bit 
east and there are about 35,000-acres-of-cotton production in 
Kansas. The most efficient cotton that is now produced in the 
United States because it is so cold it kills the bugs.
    Mr. Haas. Absolutely.
    The Chairman. We would have never thought that when Stephen 
Foster wrote the song, ``Those Old Cotton Fields Back Home'' he 
was talking about Kansas.
    Mr. Haas. You know, another thing to interject in that, Mr. 
Chairman, is the fact that with the biotechnology that we see 
available to us in crops, we are reducing our uses, 
particularly insecticides. If we can grow a bt corn and save 
from spraying that corn with an insecticide that kills 
everything, all the insects around it, it is better.
    We have got a lot of things going for production 
agriculture today and I think the carbon sequestration that we 
are looking at is just another positive and I think it has a 
place to play in the role.
    The Chairman. I apologize for Senator Kerrey who had to 
leave and I guess we got to visiting too much, John, in regards 
to our mutual prejudice which, you know, obviously, makes us 
both very smart.
    [Laughter.]
    But I want to thank all of the witnesses and the previous 
witnesses. This has been the first hearing of this subcommittee 
in quite a bit of time. I think we focused on the right topic 
and I want to thank the witnesses.
    We are going to see if we cannot work with the 
appropriators to see if we can have a greater investment in 
regards to carbon sequestration. We are going to be working 
with the Department to make sure that they maintain a very 
strong voice and that we try to do a better job of 
consolidating and having that clearinghouse that our producers 
really want and should have.
    I think this is a very exciting topic. As I have said, 
again, I think that this is part of the answer, a big answer to 
global warming, and it is a positive answer aside from all the 
debate we are having as to whether that is the proper--whether 
the Kyoto Treaty would be the proper role or not.
    So, I thank the witnesses and the Subcommittee is 
adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                              May 4, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9743.001

[GRAPHIC] [TIFF OMITTED] T9743.002

[GRAPHIC] [TIFF OMITTED] T9743.003

[GRAPHIC] [TIFF OMITTED] T9743.004

[GRAPHIC] [TIFF OMITTED] T9743.005

[GRAPHIC] [TIFF OMITTED] T9743.006

[GRAPHIC] [TIFF OMITTED] T9743.007

[GRAPHIC] [TIFF OMITTED] T9743.008

[GRAPHIC] [TIFF OMITTED] T9743.009

[GRAPHIC] [TIFF OMITTED] T9743.010

[GRAPHIC] [TIFF OMITTED] T9743.011

[GRAPHIC] [TIFF OMITTED] T9743.012

[GRAPHIC] [TIFF OMITTED] T9743.013

[GRAPHIC] [TIFF OMITTED] T9743.014

[GRAPHIC] [TIFF OMITTED] T9743.015

[GRAPHIC] [TIFF OMITTED] T9743.016

[GRAPHIC] [TIFF OMITTED] T9743.017

[GRAPHIC] [TIFF OMITTED] T9743.018

[GRAPHIC] [TIFF OMITTED] T9743.019

[GRAPHIC] [TIFF OMITTED] T9743.020

[GRAPHIC] [TIFF OMITTED] T9743.021

[GRAPHIC] [TIFF OMITTED] T9743.022

[GRAPHIC] [TIFF OMITTED] T9743.023

[GRAPHIC] [TIFF OMITTED] T9743.024

[GRAPHIC] [TIFF OMITTED] T9743.025

[GRAPHIC] [TIFF OMITTED] T9743.026

[GRAPHIC] [TIFF OMITTED] T9743.027

[GRAPHIC] [TIFF OMITTED] T9743.028

[GRAPHIC] [TIFF OMITTED] T9743.029

[GRAPHIC] [TIFF OMITTED] T9743.030

[GRAPHIC] [TIFF OMITTED] T9743.031

[GRAPHIC] [TIFF OMITTED] T9743.032

[GRAPHIC] [TIFF OMITTED] T9743.033

[GRAPHIC] [TIFF OMITTED] T9743.034

[GRAPHIC] [TIFF OMITTED] T9743.035

[GRAPHIC] [TIFF OMITTED] T9743.036

[GRAPHIC] [TIFF OMITTED] T9743.037

[GRAPHIC] [TIFF OMITTED] T9743.038

[GRAPHIC] [TIFF OMITTED] T9743.039

[GRAPHIC] [TIFF OMITTED] T9743.040

[GRAPHIC] [TIFF OMITTED] T9743.041

[GRAPHIC] [TIFF OMITTED] T9743.042

[GRAPHIC] [TIFF OMITTED] T9743.043

[GRAPHIC] [TIFF OMITTED] T9743.044

[GRAPHIC] [TIFF OMITTED] T9743.045

[GRAPHIC] [TIFF OMITTED] T9743.046

[GRAPHIC] [TIFF OMITTED] T9743.047

[GRAPHIC] [TIFF OMITTED] T9743.048

[GRAPHIC] [TIFF OMITTED] T9743.049

[GRAPHIC] [TIFF OMITTED] T9743.050

[GRAPHIC] [TIFF OMITTED] T9743.051

[GRAPHIC] [TIFF OMITTED] T9743.052

[GRAPHIC] [TIFF OMITTED] T9743.053

[GRAPHIC] [TIFF OMITTED] T9743.054

[GRAPHIC] [TIFF OMITTED] T9743.055

[GRAPHIC] [TIFF OMITTED] T9743.056

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 4, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9743.057

[GRAPHIC] [TIFF OMITTED] T9743.058

[GRAPHIC] [TIFF OMITTED] T9743.059

[GRAPHIC] [TIFF OMITTED] T9743.060

[GRAPHIC] [TIFF OMITTED] T9743.061

[GRAPHIC] [TIFF OMITTED] T9743.062

[GRAPHIC] [TIFF OMITTED] T9743.063

[GRAPHIC] [TIFF OMITTED] T9743.064

[GRAPHIC] [TIFF OMITTED] T9743.065

[GRAPHIC] [TIFF OMITTED] T9743.066

[GRAPHIC] [TIFF OMITTED] T9743.067

[GRAPHIC] [TIFF OMITTED] T9743.068

[GRAPHIC] [TIFF OMITTED] T9743.069

[GRAPHIC] [TIFF OMITTED] T9743.070

[GRAPHIC] [TIFF OMITTED] T9743.071


</pre></body></html>
